<html>
<title> - IMPROVING HEAD START FOR AMERICA'S CHILDREN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                          IMPROVING HEAD START
                         FOR AMERICA'S CHILDREN

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 28, 2007

                               __________

                            Serial No. 110-6

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html




                      U.S. GOVERNMENT PRINTING OFFICE
33-396 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 







                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Bob Inglis, South Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Timothy H. Bishop, New York          Kenny Marchant, Texas
Linda T. Sanchez, California         Tom Price, Georgia
John P. Sarbanes, Maryland           Luis G. Fortuno, Puerto Rico
Joe Sestak, Pennsylvania             Charles W. Boustany, Jr., 
David Loebsack, Iowa                     Louisiana
Mazie Hirono, Hawaii                 Virginia Foxx, North Carolina
Jason Altmire, Pennsylvania          John R. ``Randy'' Kuhl, Jr., New 
John A. Yarmuth, Kentucky                York
Phil Hare, Illinois                  Rob Bishop, Utah
Yvette D. Clarke, New York           David Davis, Tennessee
Joe Courtney, Connecticut            Timothy Walberg, Michigan
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Bob Inglis, South Carolina
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Rob Bishop, Utah
Joe Sestak, Pennsylvania             Todd Russell Platts, Pennsylvania
David Loebsack, Iowa                 Ric Keller, Florida
Mazie Hirono, Hawaii                 Joe Wilson, South Carolina
Phil Hare, Illinois                  Charles W. Boustany, Jr., 
Lynn C. Woolsey, California              Louisiana
Ruben Hinojosa, Texas                John R. ``Randy'' Kuhl, Jr., New 
                                         York










                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 28, 2007................................     1

Statement of Members:
    Castle, Hon. Michael N., Senior Republican Member, 
      Subcommittee on Early Childhood, Elementary and Secondary 
      Education..................................................     3
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     2
    Sarbanes, Hon. John P., a Representative in Congress from the 
      State of Maryland, prepared statement of...................     1

Statement of Witnesses:
    Elloie, Pearlie, Director, Office for Children, Youth and 
      Families, Total Community Action, Inc......................    23
        Prepared statement of....................................    25
    Frede, Ellen, Ph.D., Codirector, National Institute for Early 
      Education Research, Rutgers University.....................    29
        Prepared statement of....................................    31
    Haxton, Barbara, Executive Director, the Ohio Head Start 
      Association................................................    17
        Prepared statement of....................................    19
    McKeever, Mac, Out-County Head Start Director................    12
        Prepared statement of....................................    14
    Thompson, Ross A., Ph.D., Professor of Psychology, University 
      of California-Davis........................................     5
        Prepared statement of....................................     7

Additional Material Submitted:
    Sanchez, Yvette, Executive Director, the National Migrant and 
      Seasonal Head Start Association, prepared statement of.....    53
    Sheketoff, Emily, Executive Director, the American Library 
      Association, letter........................................    39


              IMPROVING HEAD START FOR AMERICA'S CHILDREN

                              ----------                              


                      Wednesday, February 28, 2007

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:33 a.m., in 
room 2175, Rayburn House Office Building, Hon. Dale Kildee 
[chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Scott, Kucinich, Davis of 
California, Grijalva, Payne, Sarbanes, Sestak, Loebsack, 
Hirono, Hare, Woolsey, Honojosa, Castle, Fortuno, Keller, 
Boustany and Kuhl.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Molly Carter, Legal Intern/Education; 
Alejandra Ceja, Senior Budget/Appropriations Analyst; Adrienne 
Dunbar, Legislative Fellow/Education; Denise Forte, Director of 
Education Policy; Ruth Friedman, Senior Education Policy 
Advisor/Early Childhood; Lloyd Horwich, Policy Advisor for 
Subcommittee on Early Childhood, Elementary and Secondary 
Education; Thomas Kiley, Communications Director; Jeff Hancuff, 
Labor Staff Assistant; Ann-Frances Lambert, Administrative 
Assistant to Director of Education Policy; Stephanie Moore, 
General Counsel; Alex Nock, Deputy Staff Director; Robert 
Borden, Minority General Counsel; Kathryn Bruns, Minority 
Legislative Assistant; Jessica Gross, Minority Deputy Press 
Secretary; Taylor Hansen, Minority Legislative Assistant; 
Victor Klatt, Minority Staff Director; Stephanie Milburn, 
Minority Professional Staff Member; Linda Stevens, Minority 
Chief Clerk/Assistant to the General Counsel.
    Chairman Kildee. With a quorum being present, the hearing 
of the subcommittee will come to order.
    Pursuant to Committee Rule 12(a), any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    [The information follows:]

   Prepared Statement of Hon. John P. Sarbanes, a Representative in 
                  Congress From the State of Maryland

    Mr. Chairman, I am very excited to begin the Subcommittee's work on 
the reauthorization of important education programs like Head Start. 
Perhaps no other federal program is more important than putting 
children on the right path for educational success. In recent years, 
brain research has ratified the critical role of early childhood 
education.
    My own state of Maryland has been a leader in coordinating early 
learning programs. Maryland's State Department of Education, for 
example, has worked to improve school readiness through the Maryland 
Model for School Readiness program. As a result, Maryland's students 
have made tremendous strides in terms of the number of children who 
enter school ready to learn as demonstrated by annual assessments. 
Still, innovation without adequate resources has its limits. 
Increasingly, Head Start providers are being forced to choose between 
two bad options: diluting the quality of their program or refusing some 
eligible children.
    The impact of budget buts to the Head Start program is well 
demonstrated at Baltimore's Catholic Charities, a Head Start grantee. 
The Administrator of Head Start programs at Catholic Charities recently 
said: ``We already made every kind of cut that we could find to make 
leading into last year. Because of the (1 percent) federal funding 
shortfall I could not find any further services or staff to cut without 
reducing the quality of our program, which is something I refuse to do. 
So I had no other choice but to not renew our contract of two Head 
Start programs for next year. These two programs had been serving 459 
children. We are working with the grantee now to ensure that these 
children get some services elsewhere, but there is no guarantee that 
services won't be interrupted. We may be closing the door of 
opportunity on 459 children.''
    Mr. Chairman, the administration's failure to direct adequate 
resources to these critical programs is closing the door of opportunity 
on these children and many others. I think you again for your 
leadership in holding this hearing and look forward to working with you 
to provide more and better opportunities for our nation's children.
                                 ______
                                 
    Chairman Kildee. I now recognize myself for my opening 
statement.
    I am pleased to welcome my fellow subcommittee members, 
especially those who are new to this committee. I have this 
gavel back in my hand for the first time in 12 years, and I 
hope I will use it as fairly as Governor Castle has used it. He 
has always been fair and helpful.
    I hope I can follow your example on that, Governor.
    I welcome our witnesses and the public to this hearing on 
improving Head Start for America's children.
    Head Start has served our most vulnerable children and 
families extremely well for 42 years, and, more recently, Early 
Head Start has done the same for infants and toddlers and their 
families. There are no more critical programs for our Nation's 
children than these because there are no years more critical to 
their development than the early ones.
    Head Start and Early Head Start provide high-quality 
comprehensive services to children and their families that help 
children develop cognitively and non-cognitively to enable them 
to succeed in school and in life. As Head Start providers have 
known for years, and as we will hear today, early learning is a 
product of both cognitive and non-cognitive and, indeed, 
affective education. That is why Head Start and Early Head 
Start are so successful, because they promote both and meet 
high standards in doing so.
    Providing infants and toddlers and young children with the 
support and security they need helps their brains develop in 
the early years and literally sets the foundation for later 
development and learning. Just in the last few years, we have 
learned that in the physical development of the brain, as our 
circuits are formed, stimulation takes place, and that adds a 
great deal to our body of knowledge and to our understanding of 
the education of the very young.
    We also will hear today about the importance of Head 
Start's focus both on children and their families. Head Start 
recognizes that healthy, well-adjusted children are far more 
likely to come from healthy, well-adjusted families, and that 
when families are under stress, that stress affects their 
children's development.
    One of the greatest stresses on families in our lifetimes 
has been the ongoing impact of Hurricanes Katrina and Rita and 
their aftermath on the people of New Orleans and the Gulf 
region. Today, we will learn about that tragedy, one program's 
efforts to mitigate it on behalf of the families they serve, 
and what still needs to be done to help those families. And we 
will hear suggestions for improving the relationship between 
the Federal Department of Health and Human Services and local 
Head Start programs to make it a supportive relationship that 
helps programs reach the high standards to which they aspire, 
and also suggestions for increasing coordination between Head 
Start and State-funded prekindergarten programs.
    I am confident that today's hearing will provide us with 
valuable information about how Head Start works and what we can 
do to make it work even better. I know that one thing that will 
not make Head Start work better would be to cut the investment 
by $100 million as proposed in the President's budget. I do not 
believe that the President's budget reflects the values of the 
American people, and I will work with my colleagues in Congress 
on both sides of the aisle to produce a budget that does.
    I am hopeful that working with my Ranking Member Mr. 
Castle, and our full committee Chairman and Ranking Member Mr. 
Miller and Mr. McKeon, and with all members of the committee, 
we can pass a reauthorization bill that will build on 42 years 
of Head Start successes for the good of our Nation's children.
    Chairman Kildee. It is now my pleasure to yield to the 
Ranking Member, Governor Castle, for his opening statement.
    Mr. Castle. Well, thank you very much, Dale. I cannot say 
enough how pleased I am that you have taken over the helm of 
this subcommittee again. I think that we have a real chance of 
bipartisanship here, and I very much look forward to working 
with you on all of the important issues in the jurisdiction of 
our committee, and I am particularly pleased to be able to 
discuss an issue that is of vital importance to our neediest 
children, as you have well pointed out, and that is Head Start. 
What better way to kick off your chairmanship than to start 
with a good bipartisan issue.
    As most people in this room know, this committee is set to 
consider reauthorization of the Head Start program for the 
third time. At one point I was optimistic that this renewal 
would have been completed by now. Clearly I was wrong. Despite 
that, I am going to remain optimistic that we get there with 
this Congress.
    Despite ups and downs in the process over the past several 
years, there are several notions that have remained clear, 
primarily that this program retains its focus on allowing 
economically disadvantaged children access to the same 
educational, health, nutritional, social, and other services 
that were enjoyed by their more affluent peers. The goal of the 
program was and remains today to provide children a solid 
foundation that will prepare them for success in school and 
later in life.
    Over time, this program has provided the service to nearly 
20 million low-income children and their families. Currently in 
my home State of Delaware, Head Start programs serve over 1,500 
children with almost 500 additional 4-year-olds receiving 
assistance through State government funding. I am pleased that 
we have a witness this morning who will discuss how Head Start 
can coordinate with State pre-K and other early childhood 
programs.
    We also can all agree on the need for Head Start and its 
successes. We must also recognize that Head Start can produce 
even greater results for children. Students who attend Head 
Start programs do start school more prepared than those with 
similar programs that do not attend Head Start. However, Head 
Start students continue to enter kindergarten well below 
national norms in school readiness. We must remain focused on 
how we can close this school readiness gap.
    As I said, I believe strongly in the Head Start program. 
Despite these stories, we have also heard many stories of 
programs in which funds are being diverted away from this 
purpose. I trust that, as we move forward, we will all identify 
areas based on recommendations from the Government 
Accountability Office of how we can prevent future incidents. 
As I said at the outset, Head Start is an important and very 
popular program. The importance of early childhood education 
and services cannot be overstated.
    I look forward to hearing from today's witnesses about what 
is happening on the ground, particularly since it is almost 2 
years since this committee last reviewed the program in 
anticipation of our job to reauthorize the program. Together I 
believe we will get this done, and I believe, with Chairman 
Kildee's leadership, we will get it done.
    With that, I yield back, Mr. Chairman.
    Let me apologize first. I have a lot of meetings this 
morning. I have to take a meeting over here for a few minutes. 
I will miss the beginning, but I will return shortly, and we 
thank you all for being here.
    Chairman Kildee. Thank you, Governor, very much.
    I would like now to introduce the very distinguished panel 
of witnesses with us here this afternoon, and without 
objection, all Members will have 7 calendar days to submit 
additional materials or questions for the hearing record.
    We have a distinguished panel. We have Dr. Ross Thompson, a 
professor at the University of California at Davis. He served 
on the Committee on Integrating the Science of Early Childhood 
Development at the National Academy of Sciences from 1998 to 
2000. He also is a member of the Board of Directors of Zero to 
Three. Dr. Thompson has received the American Psychological 
Association's Boyd McCandless Award and the University of 
Nebraska's Outstanding Research and Creative Activity Award.
    I have known our second witness for many years. Mac 
McKeever is the out-county Head Start director for the Genesee 
County Community Action Resource Department and does a fine job 
on behalf of many Head Start children and families in my 
district. He is also a current member of the Board of Directors 
and a Past President of the Michigan Head Start Association.
    Barbara Haxton is the Executive Director of the Ohio Head 
Start Association, and prior to that served as a Head Start 
program director. She is an experienced trainer and consultant 
for Head Start programs. She has worked over the years in 
partnership with the Head Start Training and Technical 
Assistance System.
    Pearlie Elloie is the Director of the Office of Children, 
Youth and Families of Total Community Action, Incorporated, of 
New Orleans, which, prior to Hurricane Katrina, was the largest 
Head Start program in Louisiana. Ms. Elloie has been honored 
for her work by many community organizations, including the 
YWCA, Tulane University School of Social Work, Dillard 
University, and the Greater New Orleans Chapter of the National 
Council for Jewish Women.
    Dr. Ellen Frede is the Codirector of the National Institute 
of Early Education Research at Rutgers University. Prior to 
joining NIEER as codirector, Dr. Frede served as Assistant to 
the Commissioner for Early Childhood Education at the New 
Jersey Department of Education. Her office oversaw the 
implementation of preschool programs in more than 150 school 
districts serving 50,000 children and their families.
    Welcome to all of our witnesses. We appreciate your 
assisting us in our responsibilities.
    For those who may not have testified before this committee 
before, let me explain the lighting system and the 5-minute 
rule. Everyone, including Members, is limited to 5 minutes of 
presentation or questioning. The green light will be 
illuminated when you begin to speak. When you see the yellow 
light, it means that you have 1 minute remaining. When you see 
the red light, it means your time has expired, and you need to 
conclude your testimony. I will try to be gentle if you are in 
midsentence or in midparagraph. Please be certain, as you 
testify, to turn on and speak into the microphone in front of 
you and turn it off when you are finished.
    We will now hear from our first witness.
    Before that, the rules of the committee adopted January 
24th give the Chair discretion in recognizing Members for 
questioning. It is my intention as Chair of this subcommittee 
to recognize those Members present at the beginning of the 
hearing in order of their seniority on this subcommittee. 
Members arriving after the hearing begins will be recognized in 
the order of appearance. I now call upon Dr. Ross Thompson for 
his testimony.

STATEMENT OF ROSS A. THOMPSON, Ph.D., PROFESSOR OF PSYCHOLOGY, 
                 UNIVERSITY OF CALIFORNIA-DAVIS

    Dr. Thompson. Thank you, Mr. Chairman and members of the 
subcommittee, for this invitation to testify today.
    I am particularly grateful for the interest of this 
subcommittee in the science of early childhood development and 
its relevance to the services provided by Early Head Start. 
Research from a range of scientific disciplines now provides a 
clear and convincing case for the critical importance of the 
early years to later success in school and in life, so let me 
tell you a little bit about what the science tells us.
    First of all, the development of essential human 
competencies is at its most accelerated pace in its early years 
and is based on processes of brain development. Quite simply, 
early development lays a foundation for all that follows, and 
we see this most clearly in brain development when the nerve 
cells that will last a lifetime develop in the early years, and 
early experiences shape the connections between these neurons, 
and the brain becomes wired in ways that will provide a 
foundation for the development of more advanced capacities in 
the years that follow.
    Secondly, the growth of these basic, early competencies is 
directly linked to the adult skills that are important to 
success, and this is true in many, many areas of development 
from language ability to communication skill to problem-solving 
to capacities for focusing attention and exercising self-
control. In each case early developing abilities are a 
foundation for the skills required for school readiness and 
also for adult skills relating to workplace success.
    Thirdly, early learning is based on both cognitive and 
noncognitive skills. Although we focus on cognitive skills like 
literacy and numeracy, the science tells us that noncognitive 
skills, such as a child's curiosity, motivation to learn, self-
confidence, excitement about new discovery, and the capacities 
to focus attention and to get along with others, are also 
important predictors of early learning success. Importantly, 
children in socioeconomic hardship are likely to be lagging in 
both cognitive and noncognitive skills.
    Fourth, early experiences have significant influences on 
brain development and psychological growth. Much of the story 
of early experience and brain development has focused on 
encouraging parents to talk and read and sing to their young 
children, and this is worthwhile, but the influence of early 
experiences is a double-edged sword because, for many young 
children, experiences of chronic stress, neglect or deprivation 
are the major architects of their brain development. And you 
will find in your packets in front of you a copy of a PET scan 
that describes the brain imaging of both a normal child on the 
left and a child who has experienced significant abuse on the 
right, and you can see quite dramatically how significantly 
different the brain has been architected by these different 
experiences in the early years.
    Fifth, as brain circuits consolidate over time, the brain's 
plasticity actually decreases. Now, we use the term 
``plasticity'' to describe the brain's continuing flexibility 
and adaptability, and quite simply, this flexibility naturally 
declines as brain architecture develops and consolidates. For 
many young children, however, this means that the brain is 
being built around early experiences of stress and trauma whose 
effects can be more difficult to remediate over time. For this 
reason, it is biologically wiser to prevent later difficulties 
from emerging than to try to remediate problems that have 
already developed.
    Sixth, the quality of early relationships is the active 
ingredient of healthy brain growth and psychological 
development. Nurture and sensitive relationships provide the 
best catalyst to the healthy growth of minds and brains, and, 
in fact, supportive relationships can also help to buffer the 
effects of stress that can be a significant impediment to early 
learning.
    Finally, early intervention programs can improve 
developmental outcomes for children who are at risk of long-
term difficulty, especially if the programs are carefully 
designed and thoughtfully implemented. There is now a 
significant science of early intervention that shows in 
carefully designed studies involving randomized controls the 
long-term benefits to young children from their participation 
in high-quality, early intervention programs.
    Taken together, the science of early childhood development 
suggests that investing in young children makes sense both 
biologically and economically better than the Dow and the 
NASDAQ, it seems, and this research has three further 
implications for our thinking about Early Head Start.
    The first is that the most effective program to support 
early brain growth and psychological development should attend 
to intellectual, social and emotional development and support 
families and parenting beginning early in life as Head Start 
seeks to do.
    Secondly, the results of rigorous research document the 
benefits of Early Head Start for enhancing children's progress 
in school readiness, support a parent-child relationship and 
improve family functioning as shown by a congressionally 
mandated, randomized, controlled trial of Early Head Start.
    Finally, in relation to the number of children at risk, the 
science of early childhood development suggests that 
significant expansion of Early Head Start is warranted. 
Developmentally appropriate early childhood education looks a 
lot different from developmentally appropriate education for 
older children, and Early Head Start is a developmentally 
appropriate program for young children.
    Thank you very much, and I would be happy to respond to 
questions or to provide further information.
    Chairman Kildee. Thank you, Dr. Thompson. We deeply 
appreciate your testimony.
    [The statement of Dr. Thompson follows:]

Prepared Statement of Ross A. Thompson, Ph.D., Professor of Psychology, 
                    University of California, Davis

    Thank you, Mr. Chairman and members of the committee, for this 
invitation to testify today.
    My name is Ross A. Thompson, and I am a Professor of Psychology at 
the University of California, Davis, where I study early social, 
emotional, and personality development. I was a member of the National 
Academy of Sciences Committee on Integrating the Science of Early 
Childhood Development that produced the report, From Neurons to 
Neighborhoods: The Science of Early Childhood Development, \1\ and I 
have been actively involved in conducting original research on early 
psychological development and examining the applications of 
developmental science to public policy problems. I am grateful for the 
interest of the Subcommittee in the science of early childhood 
development and its relevance to the services provided by Early Head 
Start.
    As described in From Neurons to Neighborhoods, today we know much 
more about the determinants of development throughout the life course, 
and especially the importance of early experiences for life-long 
competency. Contemporary research in human development has been 
supplemented by work in developmental neuroscience whose conclusions 
about brain development complement and expand the conclusions from 
behavioral studies. As a consequence, research from a range of 
scientific disciplines now provides a clear and convincing case for the 
critical importance of the early years to later success in school and 
in life. Remarkably, findings using a variety of methodologies and 
approaches converge on a set of fundamental conclusions.\2\ The early 
years are important. Early relationships matter. Healthy development 
involves building strong minds, bodies, and persons. The early years 
are a period of considerable opportunity for growth, and vulnerability 
to harm. Developing competence involves cognitive and noncognitive 
capabilities. It is much better to prevent developmental problems from 
emerging than to try to remediate them later.
    In these remarks, I will focus on some of the central conclusions 
of the science of early childhood development, especially as it 
concerns the influence of early experiences and their potentially 
enduring effects. I will conclude with some recommendations concerning 
the implications of the science for Early Head Start.
The early years matter
    One of the central conclusions of developmental science is the 
importance of development early in life. Quite simply, early growth 
lays the foundation for all that follows. More precisely, the 
development of essential human competencies is at its most accelerated 
pace in the early years, and is based on processes of brain 
development.
    We see the importance of the early years most clearly in brain 
development, which begins not at birth but prenatally, when the nerve 
cells that will last a lifetime begin to be created.\3\ In a manner 
that reflects the ongoing interaction of nature and nurture, brain 
development is guided by a maturational timetable that incorporates 
early experiences to create a brain that is efficient and well-suited 
to the requirements of everyday life. How the brain becomes wired in 
the early years provides a foundation for the development of more 
advanced capacities in the years that follow.
    The following points reflect some of the central conclusions of 
developmental neuroscience.\4\
    <bullet> First, as noted earlier, brain growth begins very early. 
Indeed, some of the most formative aspects of brain development occur 
prenatally, when healthy brain growth is supported by good maternal 
nutrition but can be undermined by maternal exposure to hazardous 
substances such as alcohol (resulting in fetal alcohol syndrome), 
environmental neurotoxins (such as in lead-based paint or mercury in 
fish), controlled substances (such as cocaine), and other harms.\5\ 
This means that some children are born with brains that have already 
been damaged, sometimes for life.
    <bullet> Second, brain development lasts a lifetime. Important 
developmental processes, some associated with the growth of new 
neurons, subtly shape the brain during adolescence and adulthood. The 
brain is continuing to grow and change throughout life.
    <bullet> Third, the early years of childhood witness some of the 
most significant growth in the brain's developing architecture. This 
includes the ``blooming and pruning'' of neural connections in 
different regions of the brain governing seeing and hearing, language, 
and higher cognitive functions. These processes are substantially 
completed, or well underway, within the first five years of life.
    Taken together, developmental neuroscience confirms that the early 
years establish the foundation on which later development is built, 
much as a house is structurally firm or weak based on the foundation on 
which it is built. Neural circuits that process basic information are 
wired earlier than those that process more complex information.\6\ This 
means that the development of more advanced capabilities is based on 
the quality of early development. With respect to the brain, higher 
capacities are more difficult to develop if lower-level capacities have 
not developed appropriately. With respect to the mind, advanced skills 
build on basic skills throughout development.
    For this reason, the growth of these basic, early competencies is 
directly linked to the emergence of school readiness and adult skills 
that are important to success. In many, many areas of development, from 
language ability and communication skills to problem-solving and 
categorization to capacities for focusing attention and exercising 
self-control, later skills are based on the foundational skills 
established earlier in life.\7, 8\ For example, experiences during the 
preschool years in letter recognition, letter-to-sound mappings, 
rhyming, listening to stories, and access to literacy materials 
predicts higher language and reading achievement in elementary 
school.\9, 10\ Likewise, preschool exposure to basic concepts about 
numbers, counting, comparing amounts, pattern recognition, and 
categorizing enables children to more quickly absorb and understand 
math concepts taught in school.\11\ In each case, early-developing 
abilities are a foundation for the preliteracy, language, and number 
skills required for school readiness, and for adult skills important to 
workplace success as children build further on these skills in school.
Early learning is based on both cognitive and noncognitive skills
    At a time when we are concerned with promoting children's school 
readiness and preparing them for contributing to an increasingly 
technological and information-rich society, it is natural that the 
development of cognitive skills would be the focus of our concern with 
early learning. But developmental science and developmental 
neuroscience together tell us that early learning is based on both 
cognitive and ``noncognitive skills''--such as a child's curiosity, 
motivation to learn, self-confidence, excitement about new discovery, 
and the capacities to focus attention, control behavior, and get along 
with others.
    This is true from very early. Infants learn through discovery in 
their everyday explorations, shared by a sensitive, attentive 
caregiver.\12\ Even the most casual observer of young children notices 
how much early learning is driven by young children's curiosity and 
enthusiasm for new understanding as they are ably assisted by parents 
and teachers. As young children enter into group learning activities, 
their capacities to pay attention, ask questions if they do not 
understand, cooperate with peers and adults, control their emotions, 
and approach learning opportunities self-confidently and with 
enthusiasm are major contributors to their conceptual growth. These 
qualities are also essential to school readiness and school success. 
Developmental studies have found that classroom achievement in 
kindergarten and the primary grades are associated with young 
children's noncognitive skills such as motivation, self-regulation, 
cooperation, behavioral self-control, and even the quality of their 
peer relationships and emotional understanding.\13\
    This is consistent also with scientific understanding of brain 
development.\14\ Contrary to the natural tendency to divide the brain 
into areas devoted to language, memory, reasoning, emotions, and the 
like, the human brain is actually a highly complex, integrated organ. 
There is not one brain area devoted to memory or language, but rather 
several.\15\ Furthermore, brain regions have overlapping functions 
related to thinking, feeling, or self-control. For example, areas of 
the frontal cortex are involved in both attentional focusing and 
emotional self-control.\16\ In short, the brain is not neatly divided 
into cognitive and noncognitive areas. Rather, brain processes 
influence each, and cognitive and noncognitive capacities are mutually 
influential.
Early experiences are influential
    Much of the story of early experience and brain development has 
focused on encouraging parents to talk, read, and sing with their young 
children. This is worthwhile, and it further illustrates the 
integration of cognitive and noncognitive influences because of how 
parent-child interaction captures the child's attention, provokes 
preliteracy skills, and instills enthusiasm for learning. Over time, 
experiences of this kind at home and outside the home can strengthen 
brain areas related to early thinking and reasoning.
    But the influence of early experience is a double-edged sword 
because the experiences that shape brain architecture can be either 
positive or negative, nurturant or stressful. Each is incorporated into 
developing brain architecture. Unfortunately, for many young children 
in the United States, experiences of chronic stress, neglect, or 
deprivation are major architects of their brain development, and helps 
to account for some of the difficulties they face. This is because of 
how the brain responds neurobiologically to stress.\17\ Chronic 
experiences of severe stress, especially early in life, can alter the 
functioning of brain-based stress systems--potentially causing the 
person to become hyperresponsive even to mild stressors--and can have 
important effects on physical health, immunological capacity, and 
psychological well-being for this reason. Chronic stress can also 
influence cognitive functioning because, over time, the release of 
stress hormones can damage brain structures (such as the hippocampus) 
involved in learning and memory. These are some of the reasons that 
early deprivation and stress can have enduring, detrimental 
consequences for brain development, psychological growth, and physical 
health. Children in socioeconomic hardship are especially vulnerable to 
these stresses, and to the hazards they pose.
    Early experiences are important for another reason. As brain 
circuits consolidate over time, the brain's plasticity decreases. The 
brain's ``plasticity'' is the basis for its flexibility and 
adaptability, and this flexibility naturally declines as brain 
architecture develops and consolidates. For many young children, 
however, this means that the brain is being built around early 
experiences of stress and trauma whose effects become more difficult to 
remediate over time if they are not addressed early in life.
    For this reason, it is biologically wiser to prevent later 
difficulties from emerging than to later try to remediate problems that 
have already developed.\18\ Early interventions benefit from the 
greater plasticity in the immature brain, and the flexibility of the 
brain to adapt positively to helpful interventions. By contrast, it is 
often more difficult to try to remedy problems after they have already 
developed, after brain development has consolidated around early 
vulnerabilities. Indeed, the interventions that are necessary to 
remediate later problems are often much more costly and prolonged than 
are early preventive interventions. Furthermore, even when later 
interventions are partially successful, individuals may experience 
continuing vulnerability, especially when they are under stress. Early 
prevention is, therefore, both biologically and economically a better 
course than later remediation.
Early relationships are important
    A large research literature documents how much early psychological 
development relies on the quality of early relationships. In the words 
of the National Academy of Sciences committee that wrote From Neurons 
to Neighborhoods, ``Parents and other regular caregivers in children's 
lives are the 'active ingredients' of environmental influence during 
the early childhood period. Children grow and thrive in the context of 
close and dependable relationship that provide love and nurturance, 
security, responsive interaction, and encouragement for exploration.'' 
\19\ Relationships within and outside the family are important as 
catalysts for learning, sources of security, and supports for 
developing self-confidence.
    The quality of early relationships is also important for brain 
development for several reasons.\20\ First, early social interaction 
provides infants and toddlers with a wealth of simultaneous and 
integrated stimulation--sights, sounds (including language), emotional 
arousal, touch, social signaling--that is well-calibrated to their 
capacities for understanding and responding. It is difficult to imagine 
a toy, DVD, or other manufactured product that can come close to 
matching everyday, sensitive parent-child interaction for the qualities 
of stimulation that are optimal for fostering brain development. 
Moreover, because parents and other caregivers adjust their interaction 
to the child's developing capabilities, they provide a continuing 
catalyst for the developing brain.
    In addition, supportive early relationships can buffer the effects 
of stress on young children. In one study, for example, temperamentally 
fearful children who were faced with mildly stressful events exhibited 
lower physiological stress responses when they were accompanied by 
mothers to whom they were securely attached in comparison with fearful 
children who were in insecure attachment relationships.\21\ Studies 
like these are consistent with the findings of many other studies with 
primates and rats that attest to the stress-buffering functions of 
early close relationships.\22\ Taken together, they indicate that one 
of the important ways that relationships matter to young children is 
that they provide support in difficult circumstances, with the absence 
of such supportive relationships a significant added risk for children 
growing up in difficult circumstances.
Early interventions can be effective
    There is now a significant science of early intervention that 
shows, in carefully-designed studies involved randomized controls, the 
long-term benefits to young children from their participation in high-
quality early intervention programs. These studies collectively 
indicate that early intervention programs can improve developmental 
outcomes for children who are at risk of long-term difficulty--
especially if the programs are carefully-designed and thoughtfully 
implemented.\23\ Taken together, evaluation studies in this literature 
support the conclusions reported in From Neurons to Neighborhoods:
    Model early childhood programs that deliver carefully designed 
interventions with well-defined objectives and that include well-
designed evaluations have been shown to influence the developmental 
trajectories of children whose life course is threatened by 
socioeconomic disadvantage, family disruption, and diagnosed 
disabilities. Programs that combine child-focused educational 
activities with explicit attention to parent-child interaction patterns 
and relationship building appear to have the greatest impacts. In 
contrast, services that are based on generic family support, often 
without a clear delineation of intervention strategies matched directly 
to measurable objectives, and that are funded by more modest budgets, 
appear to be less effective.\24\
Implications for Early Head Start
    The science of early childhood development suggests that investing 
early in young children makes sense, both biologically and 
economically. This research has three further implications for our 
thinking about Early Head Start:
    --The most effective programs to support early brain growth and 
psychological development attend to intellectual, social, and emotional 
development, and support families and parenting, beginning early in 
life. This follows from what we know about the importance of both 
cognitive and noncognitive skills, and the significance of early 
relationships, to children's learning. It is also consistent with what 
we know about the conditions of young children in socioeconomic 
hardship, who not only fall behind in letter and number skills but are 
also often lacking in physical health, the motivation to succeed, and 
supportive relationships at home. Early intervention programs to 
support young children in socioeconomic difficulty must begin early to 
benefit from the plasticity of early brain development and their early 
beginning in learning, and ideally should involve sustained assistance 
to ensure that early gains are built upon, rather than lost.
    --The results of rigorous research document the benefits of Early 
Head Start for enhancing children's progress in school readiness, 
supportive parent-child relationships, and improved family functioning. 
The Congressionally-mandated randomized control trial of Early Head 
Start, studying more than 3,000 families, has documented significant 
positive impacts on standardized measures of children's cognitive and 
language development, as well as measures of supportive family 
relationships and increased family self-sufficiency.\25\ Early Head 
Start produced statistically significant, positive impacts on 
standardized measures of children's cognitive and language development. 
Children in Early Head Start had more positive interactions with their 
parents. And Early Head Start parents were more involved and provided 
more support for learning, and were making greater progress toward 
self-sufficiency.
    --In relation to the number of young children at risk, and the 
science of early childhood development, significant expansion of Early 
Head Start is warranted. Developmentally appropriate early childhood 
education looks a lot different than developmentally appropriate 
education for older children, and Early Head Start is a developmentally 
appropriate program for young children. The enhanced participation of 
eligible young children in a well-designed program like this one 
respects our growing awareness of the importance of the early years for 
brain development and psychological growth.
    I very much appreciate this opportunity to testify, and I welcome 
the opportunity to work with Subcommittee staff to provide any further 
information that you may need.
                                endnotes
    \1\ Shonkoff, J. P., & Phillips, D. A. (Eds.) (2000). From neurons 
to neighborhoods: The science of early childhood development. Committee 
on Integrating the Science of Early Childhood Development, National 
Research Council and Institute of Medicine. Washington, DC: National 
Academy Press.
    \2\ Thompson, R. A. (2001). Development in the first years of life. 
The Future of Children, 11(1), 20-33.
    \2\ Nelson, C. A., de Haan, M., & Thomas, K. M. (2006). 
Neuroscience of cognitive development: The role of experience and the 
developing brain. Hoboken, NJ: Wiley.
    \4\ from Thompson, R. A., & Nelson, C. A. (2001). Developmental 
science and the media: Early brain development. American Psychologist, 
56(1), 5-15.
    \5\ National Scientific Council on the Developing Child, Early 
Exposure to Toxic Substances Damages Brain Architecture (2006). Working 
Paper No. 4. http://www.developingchild.net/reports.shtml
    \6\ Knudsen, E, Heckman, J, Cameron, J, Shonkoff, J.: Economic, 
Neurobiological and Behavioral Perspectives on Building America's 
Future Workforce. Proceedings of the National Academy of Sciences 2006; 
103: 10155-10162.
    \7\ Flavell, J. H., Miller, P. H., & Miller, S. A. (2002). 
Cognitive development (4th Ed.). Upper Saddle River, NJ: Prentice-Hall.
    \8\ Shonkoff, J. P., & Phillips, D. A. (Eds.) (2000). From neurons 
to neighborhoods: The science of early childhood development. Committee 
on Integrating the Science of Early Childhood Development, National 
Research Council and Institute of Medicine. Washington, DC: National 
Academy Press.
    \9\ Lonigan, C.J., Burgess, S.R., & Anthony, J.L. (2000). 
Development of emergent literacy and early reading skills in preschool 
children: Evidence from a latent-variable longitudinal study. 
Developmental Psychology, 36, 596-613.
    \20\ Storch, S.A., & Whitehurst, G.J. (2002). Oral language and 
code-related precursors to reading: Evidence from a longitudinal 
structural model. Developmental Psychology, 38, 934-947.
    \11\ Jordan, N., Huttenlocher, J., & Levine, S. (1992). 
Differential calculation abilities in young children from middle- and 
low-income families. Developmental Psychology, 28, 644-653.
    \12\ Gopnik, A., Meltzoff, A. N., & Kuhl, P. K. (2000). The 
scientist in the crib: Minds, brains, and how children learn. New York: 
Morrow.
    \13\ for a review of this research, see Thompson, R. A., & Raikes, 
H. A. (in press). The social and emotional foundations of school 
readiness. In J. Knitzer, R. Kaufmann, & D. Perry (Eds.), Early 
childhood mental health. Baltimore, MD: Paul H. Brookes Publishing Co.
    \14\ Johnson, M. H. (2005). Developmental cognitive neuroscience: 
An introduction (2nd Ed.). Cambridge, UK: Blackwell.
    \15\ Nelson, C. A., de Haan, M., & Thomas, K. M. (2006). 
Neuroscience of cognitive development: The role of experience and the 
developing brain. Hoboken, NJ: Wiley.
    \16\ LeDoux, J. E. (1996). The emotional brain. New York: Simon & 
Schuster.
    \17\ National Scientific Council on the Developing Child, Excessive 
Stress Disrupts the Architecture of the Developing Brain. (2005). 
Working Paper No. 3. http://www.developingchild.net/reports.shtml
    \18\ Shonkoff, J. P., & Phillips, D. A. (Eds.) (2000). From neurons 
to neighborhoods: The science of early childhood development. Committee 
on Integrating the Science of Early Childhood Development, National 
Research Council and Institute of Medicine. Washington, DC: National 
Academy Press.
    \19\ Ibid, p. 7.
    \20\ National Scientific Council on the Developing Child. Young 
Children Develop in an Environment of Relationships. (2004). Working 
Paper No.1 http://www.developingchild.net/reports.shtml
    \21\ Nachmias, M., Gunnar, M., Mangelsdorf, S., Parritz, R., & 
Buss, K. (1996). Behavioral inhibition and stress reactivity: The 
moderating role of attachment security. Child Development, 67, 508-522.
    \22\ Gunnar, M., & Vazquez, D. (in press). Stress neurobiology and 
developmental psychopathology. In D. Cicchetti & D. Cohen (Eds.), 
Developmental psychopathology (2nd Ed.), Vol. III. Risk, disorder, and 
adaptation. New York: Wiley.
    \23\ For reviews, see: Barnett, W. S. (2000). Economics of early 
childhood intervention. In J. P. Shonkoff & S. J. Meisels (Eds.), 
Handbook of early childhood intervention (pp. 589-610). New York: 
Cambridge University Press; and Farran, D. C. (2000). Another decade of 
intervention for children who are low income or disabled: What do we 
know now? In J. P. Shonkoff & S. J. Meisels (Eds.), Handbook of early 
childhood intervention (pp. 510-548). New York: Cambridge University 
Press.
    \24\ Shonkoff, J. P., & Phillips, D. A. (Eds.) (2000). From neurons 
to neighborhoods: The science of early childhood development. Committee 
on Integrating the Science of Early Childhood Development, National 
Research Council and Institute of Medicine. Washington, DC: National 
Academy Press, p. 11.
    \25\ U.S. Department of Health and Human Services, Administration 
for Children and Families (2002). Making a difference in the lives of 
infants and toddlers and their families. The impacts of Early Head 
Start. Washington, D.C.
                                 ______
                                 
    Chairman Kildee. Mr. McKeever.

   STATEMENT OF MAC McKEEVER, OUT-COUNTY HEAD START DIRECTOR

    Mr. McKeever. Good morning, honorable Chairman Kildee and 
all honorable Members of Congress on this special Subcommittee 
on Early Childhood Education.
    My name is Mac McKeever. I am a Head Start director from 
Michigan. We serve Genesee County, which includes Flint, 
Michigan. I sincerely appreciate the opportunity to speak to 
you today and to testify on the importance of the Head Start 
program.
    We are a family-focused program. We serve families below 
poverty with children from birth to 5 years of age. You have 
all received a copy of the examples, statistics and data that 
has been submitted. I urge you to review that in its entirety. 
I hope it will be helpful. In Genesee County--I am going to 
give a brief overview. I am not going to go through all of the 
data and statistics. I am going to go through some of that data 
and statistics at this time.
    Now, in Genesee County, we serve almost 2,100 families 
through the traditional Head Start program, 182 families in 
Early Head Start. We also, through State partnerships, serve 
another 150 children. We operate a model that includes three 
delegate agencies: the Flint Board of Education, the Carman-
Ainsworth Board of Education, and the Beecher Board of 
Education. We also, as a grantee, directly provide services to 
17 other school districts. We also have sites and partnerships 
with the Workforce Investment Act's Training Center, the U.S. 
Department of Labor's Job Corps Center, the University of 
Michigan-Flint, Mott Community College, and we also have 
operation sites in partnership with the YWCA, and our own 
administrative offices have sites that serve children of 
college and working parents.
    Head Start is a special and unique program, and it is 
unlike daycare, preschool or other early childhood programs. 
These are all good programs, and they are greatly needed. They 
serve many young children. Head Start is different, though, and 
it is different in that it is a comprehensive family and child 
program. We provide services to the total family unit, whatever 
that family unit may be. We include parents, siblings, 
stepchildren, grandparents, foster children. All of those 
things are included in our service delivery. Head Start is a 
family.
    A brief description of our community. Some of you may have 
already seen or heard about our community through the media. We 
are originally the home of General Motors and the Delphi 
Corporation, also the community with the greatest number of 
General Motors' cutbacks, the greatest number of General 
Motors' layoffs. We are also the home of the Delphi Corporation 
in bankruptcy. These are areas that indicate we have one of the 
highest unemployment rates in the Nation. We were at 7.8 
percent as of December of last year. You may have also recently 
heard through the media, regrettably, that we are the third 
highest city in terms of violent crime in the Nation.
    As to the other areas that may be of interest to you, over 
16,000 children under 5 years of age live in poverty in the 
Genesee County community. Within our own program, 70 percent 
are single parents; 90 percent of these families are in 
poverty. They are not at 130 percent, 150 percent or 180 
percent. They are at base 100 percent of poverty. From 2000 to 
2005, we had 4,021 cases of reported domestic violence. 
Eighteen percent of our children in Head Start between 19 and 
36 months have not been immunized. Fifteen percent of the 
pregnant women do not receive prenatal care in their first 
trimester. We have the highest teen pregnancy rate in our 
State, almost 20 percent in some areas. Our families drop out 
of high school without graduation on a frequent basis. We also 
hold the highest rate in that area of many of our counties. 
While we speak, these things continue to grow.
    I can continue forever with statistics and data. We see 
families move two or three times a year. We see these families 
go back to their parents, live with their parents, become 
extended families. That becomes a very important factor.
    We serve through different facets. We have a mental health 
component, a social service component, a health component. The 
mental health staff visit homes. They go into the home. They 
meet the families. They know the families. That is how we 
develop the strategies and the ways of working with the 
families. We have families help in shared decision-making. 
These families share in the actual decisions of the program, of 
the policy council. We provide antiviolence training. We 
provide workshops that deal with areas of safety techniques, 
conflict resolution, methods of alternative behaviors. These 
are all critical areas, and in the areas of social service and 
mental health, both need to be increased immensely. We are very 
proud of our Male Involvement program. We have a 14-week male 
nurturing series in conjunction with school districts locally.
    Thank you very much. We know that the academics are 
important, and we believe in the importance of academics, but 
the emotional/social needs of the child and the needs of the 
entire family are just as important. A child who can share and 
care and respect authority will learn in spite of many 
barriers, and that has been our experience.
    Thank you.
    Chairman Kildee. Thank you, Mr. McKeever.
    [The statement of Mr. McKeever follows:]

Prepared Statement of H. ``Mac'' McKeever, Head Start Director, Genesee 
         County GCCARD Head Start and Early Head Start Program

    Mr. Chairman Kildee, and Honorable Members of Congress, my name is 
Mac McKeever. I am a Head Start Director with the Genesee County 
Community Action Resource Department Head Start Program. We are the 
Head Start Grantee for the Genesee County area including Flint, 
Michigan.
    I am pleased that you have allowed me the opportunity to testify on 
the importance of the Head Start Program. Head Start is a comprehensive 
family focused program for low-income families of children from birth 
to five years old. Our program serves 2087 families in the traditional 
Head Start program and 182 families in Early Head Start. As the 
Grantee, we directly serve 788 families in Early Head Start and 
traditional Head Start combined. We also delegate three school 
district's Head Start programs; the Flint Board of Education, Carman-
Ainsworth Community Schools, and the Beecher Community Schools. The 
Grantee serves all other areas of Genesee County; 17 school districts, 
Job Corps, University of Michigan, Mott Community College and Workforce 
Investment Act's Job's Training Center. We have sites at the YWCA and 
our administration building that also enrolls children of college 
students.
    Head Start is a special, unique program and is unlike regular Pre-
Kindergarten programs, childcare, or other Early Childhood Education 
programs. These are all worthwhile and good programs that meet the 
needs of the families with the resources they receive. Head Start is a 
Comprehensive Family and Child focused program. It provides a wide 
range of services to the young child and the other members of their 
family unit. It has a totally different approach than other Early 
Childhood programs.
    We in Genesee County, Flint, Michigan see every day how important 
this multi-focused comprehensive program is in our area.
    Flint, Michigan and Genesee County face many challenges. Some are: 
the third highest violent crime city in the nation, the Delphi 
Corporation's bankruptcy, massive General Motors' layoffs, we 
consistently have one of the highest unemployment rates in the nation. 
The unemployment rate as of December 2006 was at 7.8%. The Head Start 
program and its staff are on the front lines of meeting the needs of 
these at risk families. Over 16,703 children in Genesee County under 
the age of 5 years old live below the poverty level. Sadly, the 
situation seems only to be getting more desperate. Our unemployment 
rates grow daily as more and more good paying jobs leave our community. 
This is not to say that Genesee County and Flint do not have many 
honest, hardworking families in our community.
    With these higher paying jobs disappearing, many of our families 
are now working at low paying service jobs like McDonald's where they 
are not paid well and have no health benefits at all. As a result, 
health care services are critically important.
    a. In 2003, 18% of children in our community age 19 to 35 months 
had not been fully immunized.
    b. More than 15% of pregnant women do not receive prenatal care in 
their first trimester.
    c. More than 10.4% of babies are born at a low birth weight.
    d. 3.8% of babies receive inadequate or no prenatal services at 
all.
    Many families are also having a difficult time finding stable 
housing. We see many families who have moved more than three times in a 
year because they cannot afford the rent. There are also a large 
segment of children and families sharing housing. Extended families and 
adult children are returning to their parent's home bringing their 
families with them. Grandparents are now many times parental 
substitutes.
    Many times, the parents in our families have dropped out of high 
school, been involved with the juvenile justice system or may have had 
other negative contact with the traditional social service and 
education network. This results in their avoidance and mistrust of the 
system that can help them. Head Start develops trust, support, and 
allows parents input into the program. Through these things, positive 
change develops and families become self-sufficient. We make parents 
feel that it is their program, not just another part of the system.
    Because of the incredible needs of the families we serve, Head 
Start cannot afford to focus solely on the educational development of 
the children we serve. Making sure that our children are ready to learn 
includes providing support for the entire family. These are the most 
vulnerable, highest risk families we can identify. Our caseworkers help 
families locate emergency housing, food assistance, and many other 
needed services. Our program partners with several job-training 
programs in our local area so that we can help laid off/unemployed 
workers get the skills they need to move forward. Many of these are 
past Delphi, General Motors, or related industry low seniority 
employees with 15 years mostly. Training programs provide parents with 
employment skills in areas such as building and apartment maintenance, 
janitorial, dental hygiene, optical technician, etc. We work closely 
with the Workforce Investment Act and the local Job Corps. We have 
partnerships with local colleges to aid parents in returning to school. 
We have a physical site at these college locations, which provides on-
site access to families. A partnership with the YWCA and a center 
located at our administrative office also provides centers that focus 
on colleges and training programs.
    There are other important services that are unique to Head Start, 
i.e., we provide family, child and adolescent support services through 
our
    1. Mental Health Services
    2. Health Services
    3. Dental Services
    4. Nutrition Services--Teaching parents how to prepare low cost, 
healthy meals.
    5. Special Needs and Disabilities
    6. Social Services component
    7. Parent education and training. We also address child and adult 
literacy through our adult literacy curriculum, training for adults in 
literacy education, child literacy curriculum, etc.
    8. We also involve parents in shared decision making affecting key 
areas of the program, i.e. budget, personnel, program self-evaluation, 
etc. This process THAT includes informed participation in the shared 
decision making process also becomes a growth and confidence building 
experience for the parents. We go into parents' homes, have parent 
meetings and policy council meetings each month. Parents also volunteer 
in the classroom.
    This type of contact enables Head Start to develop trust and become 
aware of the families' needs and the emergencies they may have. We can 
then support the child and family unit appropriately.
    We help families identify health care resources and establish a 
``medical home'' for themselves and for their children by partnering 
with community health centers in the area, such as the Hamilton 
Community Health Clinic, the public hospitals and Mott Children's 
Health Center, etc. Health care continues to be a significant community 
concern. The majority of local medical and dental providers do not 
accept public assistance or Medicaid. These services are even more 
difficult to obtain for the adult and even child dental needs.
    We have children that come to Head Start hungry. Many lack fresh 
fruit and vegetables at home and simply are not receiving nutritious 
meals. Head Start plays a vital role in keeping children healthy by 
providing each child with nutritious snacks and hot meals that they may 
not be getting at home. We also see children that are suffering from 
obesity. Child obesity is an epidemic in the United States and a very 
difficult area to address. We work with parents to help them provide 
healthy meals in their home while shopping on a budget and teach them 
about the benefits of regular exercise.
    We are finding that many of our children are demonstrating and 
acting out behavioral problems in the classroom and at home. Our 
program works with these children and provides counseling and referrals 
to specialists when they are needed. We have trained mental health 
service professionals. The Social Service and Mental Health Staff visit 
the classrooms throughout the year, either by request of the teacher or 
parent. They observe children with behavioral problems and attempt to 
provide child management techniques, intervention and staff support to 
modify the negative behavior. In the more severe situations, we refer 
to local psychologists, community mental health agencies, etc. and then 
collaborate follow-up with the family. We are finding that aggressive 
and sometimes harmful behavior is on an increase in our community. 
Staff work with parents on emotional, family and substance abuse 
problems. We establish trust and rapport at the classroom level and 
start analyzing the problem. We then identify and clarify the concerns 
and take the family to available agencies that service that concern. 
These same services are also available and utilized by the adult family 
members, siblings, etc.
    More than 10% of our children also face difficult special needs and 
disabilities. They range from speech and hearing impaired, deaf, blind, 
physically challenged and children with serious learning disabilities. 
Our program provides early intervention screenings for all children. We 
want to make sure that all the children we serve get the attention they 
need to succeed in school. We refer many of these children to Early On.
    We see rising domestic violence with a rate of 4,021 cases reported 
in 2005 alone. Classes are offered to the parents on Anti-Violence 
techniques throughout the year. These sessions include safety 
techniques, conflict resolution methods, alternative discipline 
strategies, etc. This focus is intended to address our community 
problem with violent crime and antisocial child behavior.
    We pride ourselves on our Male Involvement program. We believe that 
fathers play a critical role in the lives of their children and we want 
to create as many opportunities as possible for fathers to reconnect 
with their children and family. We provide a 14 week, male nurturing 
series, support classes, and special events with child and father i.e. 
Bowling events, Field trips, etc.
    To enable our Head Start to better serve the families in our local 
community, we provide a wide spectrum of delivery models. We offer and 
provide a double session option, Full Day Head Start, a home base 
model, evening Head Start sessions, Early Head Start classroom and home 
base programming. We try to meet the needs of our families by utilizing 
maximum local resources to provide flexible programming.
    In Genesee County, we also provide family support another way--by 
empowering parents to get involved in the classroom and in the shared 
governance of the program. We believe strongly that the parent is the 
prime educator of their children. We encourage parents to get involved 
with the parent policy councils--the parents share in decision-making 
areas in the Head Start Program. I have been working with low-income 
children and families for quite some time. In my experience, I have 
found that the parent policy council provides parents with the 
opportunity to take control of their own life as well as their 
children. I personally was a community representative on the GCCARD 
Policy Council in 1978-1979 and since have been employed as a director 
with Head Start.
    We conduct extensive training for parents on the policy council and 
often find many hidden talents in parents when we give them a chance. 
Many of our policy council parents are very good at looking at our 
budget. Every year, I receive calls from former parents who tell me 
that the policy council and Head Start helped turn their lives around. 
Many are now in college or working and some parents have even been 
elected to their local school boards and other elected offices.
    While the educational and academic areas of Early Childhood are 
important, I want to emphasize that meeting the needs of the entire 
family is essential. Head Start works because it is a true 
comprehensive program and the services we provide to families are what 
make the difference and set us apart!
    Unfortunately, for the past few years, Head Start and other 
services for families and children have had their funding level either 
frozen or reduced. In some cases, many new requirements, reports, and 
regulations have clogged up the road to serving families and caused an 
actual reduction in direct services. This has caused significant staff 
turnover due to lack of competitive salaries, fringe benefits and 
caseload increases. In our area, family service staff serves 60 to 90 
families each. Children and their parents have to once again develop a 
level of trust with new staff, which can take some time to develop. We 
are hoping that Congress will provide Head Start with an increase in 
funding so that we can continue to provide the highest quality 
services.
    I know that you are in the process of drafting the new Head Start 
Authorization. Based on my experience, I would like to make five 
recommendations for the committee to consider:
    1. Continue to strengthen the comprehensive nature of Head Start. 
Remember that Head Start's success is based on providing services to 
both children and their families. Particularly family social services 
and additional mental health services are needed. The last five years 
have focused almost exclusively on academics, assessments, measurements 
and the child's educational progress.
    2. Head Start needs a significant increase in funding. The last few 
years have been very difficult and as a result, services to children 
and families are suffering.
    3. Do not weaken the role of the parent policy council. Shared 
governance works and works well. Parental involvement is one of the 
cornerstones of the program. I believe that the policy council gives 
parents a chance to have a real say over their children's lives and 
empowers them in the process. This truly is shared decision making by 
informed parents.
    4. Provide Head Start programs the flexibility to serve the 
communities they live in. I support increasing the income eligibility 
guidelines to 130% of the poverty line so more working families can 
enroll. I also support allowing programs the flexibility to serve more 
infants and toddlers who need services and allowing programs to provide 
more full day options.
    5. Current monitoring appears to be an attempt to dismantle Head 
Start. Is that what is intended? I hope not!
    I would like to thank the committee for giving me the opportunity 
to testify today. I am more than happy to answer any questions you 
might have.
    See attached Local Success Stories.
    Let me provide you with some examples of success stories from our 
program.
Example 1
    One of our four year olds was severely disruptive and noncompliant 
in the classroom. Because of this, he and many others were not able to 
take advantage of all the learning in the classroom. Our Mental Health 
Specialist worked with the parent, teacher and child. The parent was 
bipolar and self-medicating with alcohol and street drugs. Her behavior 
and lifestyle were contributing to her son's emotional problems in the 
classroom. Our Mental Health Specialist worked with the mother to get 
her the help she needed. At the present time, this child is able to 
fully take advantage of all the classroom has to offer and his severe 
behaviors are nonexistent. The other children in class are also 
benefiting from this one intervention. The teacher can now spend more 
time teaching and less time intervening on behalf of this child.
Example 2
    Our second story involves a four year old that our Mental Health 
Specialist suspected had symptoms that indicated an autism spectrum 
disorder. Teachers and parents saw this child as ``just stubborn.'' Our 
Mental Health Specialist helped the teacher and parents to reframe the 
behavior and realize it for what it was. She worked with the teacher 
and the parents to reduce the ``stubborn'' behavior. At the present 
time, this child is thriving in our Head Start classroom and not 
receiving any outside services.
Example 3
    A Head Start Parent cannot begin to express her appreciation for 
the Genesee County C.A.R.D. Head Start program for helping to save her 
daughter, from serious harm. It was upon a routine physical exam, 
required for entry into the Head Start program, where it was discovered 
that the Head Start child had lead poisoning of a level 10. The parent 
was grateful that her daughter's lead poisoning was discovered before 
the level increased. The child could have suffered from severe 
developmental impairments had it gone undetected. Thankfully, the 
parent received resources to prevent any increase in the child's level. 
``If it wasn't for the physical required by Head Start, I would not 
have had any reason to have my daughter tested * * * thank you!''
Example 4
    A Head Start Family Service Worker has been working with a set of 
parents who both have developmental disabilities which effect their 
ability to function, especially in reading and comprehension. Within a 
week of the family entering the program, the child in our program was 
sent home with head lice. The worker called the family to be sure that 
they knew how to treat the problem. Upon learning that they did not 
know, she took the necessary equipment over to their home and walked 
the parents through the treatment steps.
    A few months later, the same parents received notification that the 
assistance they were receiving through the Department of Human Services 
(DHS) was being terminated. The parents called the staff person for 
help with understanding the letter and then what to do about their 
situation. The staff person called the Center for Civil Justice for the 
family and arranged a meeting with a lawyer who has taken this family's 
case. She transported the father to that meeting with the lawyer, took 
the father to obtain emergency food and a winter coat from a resource 
her supervisor provided, and helped the father fill out and understand 
the necessary paperwork to regain public assistance.
    The Family Service Worker has advocated with the Center for Civil 
Justice to obtain a case manager to assist this family in their daily 
needs. Most recently, DHS has required the father to attend Work First, 
however, the family has no transportation. She contacted Work First for 
the family to arrange for transportation on a daily basis for this 
father to attend Work first as scheduled.
                                 ______
                                 
    Chairman Kildee. Ms. Haxton.

STATEMENT OF BARBARA HAXTON, EXECUTIVE DIRECTOR, THE OHIO HEAD 
                       START ASSOCIATION

    Ms. Haxton. Mr. Chairman and members of the committee, 
thank you for inviting me to speak this morning. My remarks 
will focus on two very critical elements of Head Start 
operations, the HHS monitoring process and the Technical 
Assistance System. All Head Start leaders welcome----
    Chairman Kildee. Is your microphone turned on?
    Ms. Haxton. Yes, it is.
    All Head Start leaders welcome a high-quality, fair and 
balanced monitoring system, and all of us who care about the 
integrity of the Head Start program strongly support a process 
for the identification of and closure of poorly performing 
operations.
    The triennial Head Start review system has been in place 
for nearly the entire history of Head Start. The process has 
been constantly refined to make it useful for program 
improvement and has, where necessary, resulted in agencies 
being closed.
    In 2005, HHS implemented major changes in the system which 
they defined as an effort to improve the process. Regrettably, 
these changes have led to an approach that is not necessarily 
supportive, is not outcome-focused, is detailed to minutia, and 
very punitive in nature. The current review protocol has over 
300 sets of inquiry which contain over 1,000 questions, all 
requiring support documentation, and a negative answer to any 
one of these 1,000 questions will lead to a finding of 
noncompliance. Reviewers are trained to look for exceptions 
only, no strengths, only weaknesses. This emphasis on evidence-
gathering of wrongdoing has moved us away from identifying 
actual progress made by the grantee in achieving child and 
family outcomes and has, instead, created an overall climate of 
fear and distrust that is both nonproductive and energy-
draining.
    Despite the good intentions of the Office of Head Start in 
trying to make this model work, there have been significant 
problems in the last 3 years. These problems have included 
major time delays in notifying the grantee of the results of 
their reviews, in some cases more than 6 months. Agencies have 
been blind-sided with noncompliances and/or deficiencies that 
were not communicated to them during the initial visit. 
Inaccuracies by reviewers, misinterpretation of data or 
interview information have led to inappropriate findings. In 
some cases, rude, overbearing and/or intractable reviewers have 
made the process both difficult and demeaning, and in some 
cases there were reports of reviewers who did not have the 
expertise to review a particular component.
    The review system should be producing far better outcomes 
for both HHS and programs than currently is the case. Consider 
that, every year, the Office of Head Start sends out over 550 
review teams to evaluate programs, yet from this effort we have 
gained no strengths. We have only lists of weaknesses. We have 
no organizational or exemplary practices learned from this 
experience. We should look at these costly reviews as an 
investment where the results become industrywide progress 
reports and provide us a knowledge base of Head Start best 
practices.
    We strongly encourage the Office of Head Start to consider 
a renewed effort at improving the system through a model that, 
one, provides a fair and balanced process of identifying 
program strengths as well as weaknesses; two, is outcomes-
oriented and looks for and documents family and child progress, 
creating publishable accounts of program strengths and best 
practices; and three, and possibly most importantly, swiftly 
closes and replaces only those programs that cannot or will not 
correct their deficiencies.
    If we look at the TA system, interestingly enough, at this 
point in time, there appears to be little direct connection 
between the monitoring system and technical assistance. Any 
support grantees might receive in the process prior to a review 
or following a review across the Nation is at best scattered 
and, in the worst case, is nonexistent.
    Like the monitoring system, there is a long history of 
federally sponsored training and technical assistance in Head 
Start, and huge sums of money are spent on the system. The 
current system focuses on six different contractors whose 
mission is to provide support and guidance to programs. At this 
point in time, there are major gaps between the delivery system 
and the mission. We would ask that HHS identify a system that 
will work for us, looking at the challenges we face following 
reauthorization. These challenges are going to be monumental, 
and we need a TA system that is artfully designed to deliver.
    Thank you very much.
    Chairman Kildee. Thank you very much.
    [The statement of Ms. Haxton follows:]

Prepared Statement of Barbara Haxton, Executive Director, the Ohio Head 
                           Start Association

    I wish to thank the committee for inviting me to speak on behalf of 
Head Start and I will focus my remarks on two very critical elements of 
Head Start program operations, the HHS monitoring process and the 
Technical Assistance system. Each of these elements is basic to the 
foundation of continued high quality Head Start services and service 
delivery.
    A high quality, fair and balanced monitoring system is needed and 
welcomed by local Head Start programs. All of us who care about the 
integrity of the Head Start program support a process for the 
identification of poorly performing programs and ultimate closure of 
these programs if they do not meet the standards. Poorly performing 
Head Start programs should not be allowed to exist. We all want to see 
every Head Start program function consistently at a high quality 
performance level as they provide needed services to our children and 
families. Our children deserve nothing less.
    The triennial Head Start review requirement has been in place for 
nearly the entire history of the program. Over the years, the process 
has been developed and redeveloped in efforts to make it useful and 
informative for program improvement, and has in some cases resulted in 
poorly performing programs being shut down. With the development of the 
Revised Head Start Performance Standards in 1997, a concerted effort 
was made to align the review process and accompanying instrument with 
the standards. In 2000 the PRISM--Program Review Instrument for Systems 
Monitoring was introduced and put in practice. The process and the 
instrument have been revised almost annually since that time.
    The original intent was to create * * * ``an integrated, 
comprehensive and outcome-focused approach to ensure compliance with 
regulations. This approach promotes quality and supports programs in 
delivering services for children and families in a more holistic 
manner''.
    Beginning in 2005, HHS implemented major changes in the system, 
which they defined as an attempt to improve the process. The new effort 
focused on systems integration and interrelated areas of noncompliance. 
Regrettably, these changes have led to an approach which has been 
experienced by grantees as NOT being supportive, certainly not outcome 
focused, and primarily punitive in nature. In some cases these reviews 
have been fraught with nit-picking. The current review protocol 
contains over 300 inquiries each with multiple segments, which add up 
to over 1,000 specific questions--all of which require documentation. A 
negative answer to any one of which will lead to a finding of 
noncompliance.
    While the methodology and direction of the process is dictated by 
the Office of Head Start and ACF, the monitoring process is managed by 
an outside contractor. The current model for triennial reviews includes 
the use of Head Start peers and content experts as reviewers and 
federal ACF staff as team leaders. All receive training in the 
processes which are put in place each year. The training often frames 
the style evaluators use to conduct reviews and in recent years, 
evaluators have been prompted to find fault, vigorously pursue non-
compliances and at the same time are admonished not to make positive 
comments.
    In 2005, changes to the 2006 PRISM protocol included a written 
regulation that required only the reporting of compliance problems and 
totally eliminated the reporting of program strengths. During that 
year, evaluators were told to create a reviewer mindset and think like 
a witness. A piece of training material used for evaluators titled 
Litigation Perspective--Reviewers as Witnesses includes the 
instructions ``Don't think like a bureaucrat doing an in-house review--
think like a witness preparing for hostile cross-examination by the 
grantee's attorney. Prepare to defend your findings and your own 
credibility!''
    Additional materials used to train reviewers within the last two 
years include a 42 page presentation on guidance for Writing Defensible 
Preliminary Areas of Non Compliance (PANCs) instructing reviewers how 
to write defensible narratives when describing non-compliance findings 
and a 38 page Reviewer Training overview presentation which cites as a 
goal for monitoring in FY 2007 * * *''Continue to have review teams 
emphasize exception monitoring''. Exception refers only to non-
compliances and deficiencies, and at the exclusion of program 
strengths.
    Comments have been heard by Head Start staff that reviewers are 
instructed by team leaders to keep looking if they don't find non-
compliances. Reviewers have been heard saying that they will keep 
digging until they find something and in current web cast training 
presentations for program directors slated for a review, directors are 
quickly warned that there are over 1,600 measurable points each of 
which can result in a non-compliance.
    In 2005, policy was established not only for follow-up visits where 
non-compliances and/or deficiencies are found, but re-reviews as well. 
Re-reviews occurred primarily in those programs that had few or no non-
compliances. The purpose of the re-review, we were told, was to check 
the validity of the review team and process. One medium sized program 
in the midwest was found to have six minor noncompliances during their 
triennial visit. This initial visit had a team of eleven members from 
all parts of the U.S., they were revisited three weeks later, with a 
totally different team of eleven members from all parts of the U.S. and 
then six months later received a follow-up visit with three team 
members from all over the U.S., to ensure that their six non-
compliances were corrected. A conservative estimate on the dollar cost 
to the system for this evaluation process in one medium sized program 
is over $120,000.
    This negative approach and emphasis on evidence gathering of 
wrongdoing has caused the monitoring process to move away from what 
should be the most important reason for a team to visit an agency which 
is to review the actual progress made by the grantee in achieving child 
and family outcomes. The very reason Head Start agencies are funded in 
the first place--to make a difference in the lives of at risk children 
and their families, and to get children ready for school and life is 
never actually measured in a typical site visit. This negative approach 
has also created an overall climate of fear and distrust on the part of 
grantees, creating defensive posturing that is non-productive and 
energy draining. The process should be a partnership of support. Best 
practices in organization assessment dictate that both strengths and 
weaknesses be identified. Strengths should be lauded and where 
weaknesses are identified, direction and support for correction should 
be swiftly provided.
    There is no question that the Office of Head Start puts enormous 
energy and concerted effort each year into fine tuning the review 
process in ways to make it thorough, fact finding and highly 
professional. Nor is there question regarding the efforts put forth by 
OHS and the contractor to make the process work well and go smoothly. 
Despite these good intentions, however, there have been significant 
problems in the last three years which have added to the frustration 
experienced by local grantees.
    <bullet> In some cases, it has taken the Office of Head Start over 
six months to officially inform the grantee of the findings in a 
review. In one state the average time for receipt of the communication 
from the Office of Head start was over four months after the visit. The 
recommended best practices dictate a maximum 45 day turnaround time for 
OHS.
    <bullet> In some cases grantees have been blindsided with a list of 
non-compliances and/or deficiencies which were not communicated during 
the review but appear on the report.
    <bullet> The ``human element'' within the process fostered a 
multiplicity of issues
    <bullet> In many cases, grantees cited inaccuracies on the part of 
reviewers, misinterpretations of data or interview information leading 
to inaccurate findings
    <bullet> In many cases, grantees cited experiences of rude, 
overbearing and/or intractable reviewers whose demeanor was problematic 
during the review
    <bullet> In many cases, grantees cited experiences of reviewers not 
having the expertise to review a given component
    <bullet> In some cases, grantees cited experiences with team 
leaders who did not appear to take full leadership responsibility for 
the team
    We acknowledge that both the providers of the review and the 
programs receiving the review are inclined to be defensive because of 
the very nature of the review, however, the whole process of monitoring 
and evaluating Head Start programs every three years is an 
institutionalized custom that could be and should be a far better 
experience and have far greater outcomes for both HHS and the grantees 
than is currently the case.
    It is absolutely essential, given the intensity of the review 
process, and the costs associated, that EVERY Head Start program should 
emerge stronger and improved as a result of the review. The current 
PRISM Protocol has ten sections and over three hundred multi-part 
questions, each requiring an extensive multi-part answer and all 
requiring supportive evidence. Each of these sections and each of these 
questions could provide enormous learning opportunities for both the 
Head Start program and the review team. Every year, the Office of Head 
Start sends over 550 primary review teams out to the field to conduct 
in-depth evaluations of programs, yet from this effort we have gained 
no organizational or industry wide exemplary practices or strengths; we 
have only lists of weaknesses. Instead of the extensive dollar costs of 
these reviews being seen as an expense to the Office of Head Start, 
these dollars should be viewed as and treated as an investment, with 
the process of reviews positioned so that the results are an industry 
wide progress report and a knowledge base of Head Start best practices.
    We strongly encourage the Office of Head Start to consider a 
renewed effort at improving the review process and develop a system 
that:
    <bullet> Provides a fair and balanced process that identifies 
program strengths as well as weaknesses, and provides ongoing support 
for programs to correct weaknesses when they are identified.
    <bullet> Is outcomes oriented, and looks for and documents family 
and child progress, creating publishable accounts of program strengths 
and best practices.
    <bullet> Swiftly closes and replaces programs that cannot/will not 
correct deficiencies.
    Interestingly enough there has been, up until now under the current 
system, little direct connection between the HHS monitoring review 
process and the TA system established by HHS. Any support grantees 
might receive prior to a triennial review and/or following a triennial 
review while working to correct non-compliances or deficiencies is at 
best, uneven across the nation, and in worst cases, nonexistent.
    The history of federal Training and Technical Assistance support 
for Head Start programs, like the monitoring system, dates back to the 
beginning of the program. A long list of contracting organizations has 
been in place across the years to provide support, training, consulting 
and direction to program providers. Some have been more useful than 
others. Beginning in 2003, the Training portion of Training and 
Technical Assistance was essentially dropped in favor of a greater 
emphasis on Technical Assistance. Current contractors focus primarily 
on providing technical assistance to local programs.
    At the present time there are no fewer than thirteen Head Start 
National Contracts for Training and Technical Assistance. Six of those 
contractors are in place to provide direct support to grantees within 
the twelve Head Start regions across the country. Their purpose, as 
stated in an AFC publication, is to ``build grantee capacity by 
providing comprehensive, individualized technical support to Head Start 
grantees * * * by working in partnership with ACF and grantees; 
assisting grantees to comply with laws, regulations and standards; 
participating as a joint problem solver, observer and strategist; 
enhancing collaborative partnerships with local, state and federal 
entities; supporting grantees with Head Start priorities, initiatives 
and special projects; gathering and disseminating current and relevant 
research ``This mission is appropriate and solidly applicable to the 
role of a Head Start TA provider. Regrettably, however, at this point 
in time there appear to be great gaps between mission and service 
delivery.
    First--because of the number of different contractors providing 
these services, there is an uneven delivery system across the country. 
Some regions have a solid and high quality delivery system with highly 
competent content specialists and local TA specialists working in the 
field. In other regions the service delivery is more uneven. There are 
differences even from state to state in how technical assistance is 
delivered and in the intensity and quality of the service. Further, 
there appears to be a general belief on the part of individual grantees 
that both the extent of services the current TA system has to offer, 
and the professional capacity of some of the TA specialists is limited.
    Second--in many instances, grantees report that their individual TA 
Specialists spend inordinate amounts of time filling out forms, 
ensuring that data is recorded in just the right order, and redoing 
paperwork so that the reporting format is uniform. It appears that more 
time and effort is spent in ensuring correct report development than in 
providing actual technical assistance. In some regions the primary 
responsibility for a TA Specialist is to work with the grantee to 
develop a training plan. Training Plans must be developed by the 
grantee in a time frame which coincides with their grant fiscal year 
and prior to sending their grant to the Regional Office for renewal. 
This timeframe may or may not line up with the school year, thus making 
the projection of training needs difficult and often forced. Once 
completed, the training plan must be submitted through a series of 
approvals and ultimately to the Regional Office for final approval. The 
grantee is notified once those approvals have been completed. Whatever 
follow-up occurs between the TA specialist and grantee beyond that is 
reported as sporadic and not particularly useful.
    Extensive feedback from grantees regarding their relationship with 
the TA system includes:
    <bullet> We have not seen our TA Specialist in about 10 months. I 
occasionally get an email with some sort of article forwarded once a 
year.
    <bullet> I would have appreciated some sort of contact prior to our 
Federal Review, maybe even a prep session. We got nothing and I spent 
our own TA dollars for another resource.
    <bullet> Our TA Specialist is not particularly skilled in meeting 
our needs. We do not get timely responses from her, nor is she 
responsive to our needs. Sometimes it has taken as long as six months 
to get answers to our questions.
    <bullet> Our agency has not made much use of the TA system. The 
meetings with their staff are tedious, often endless and without 
benefit to my program. The staff is not reliable and does not follow-up 
on commitments they have made.
    <bullet> Our TA person is very nice, but not particularly useful to 
our agency. She contacts me in October, shows up one day to review the 
plan that my staff and I have already written, and I hear from her one 
more time when she tells me the plan has been approved. That is it. If 
I really needed support and technical assistance with a major program 
issue, I would not contact her for help.
    <bullet> My perspective on the current TA system is that our Head 
Start team actually plans, develops, prepares and executes the TA 
Program Assessment and the Training plan. The consultant's role has 
been to make visits review the plan (and ensure that it is written in 
the correct format) and pass our work along to the Regional office for 
approval. I do not experience any real consulting from this system or 
this person and I question the value of what we receive.
    Most grantees have stated that the T/TA system in place during the 
years 1993 through 2003 was exceptionally better than the system now in 
place.
    Third--as evidenced by the forgoing comments from grantees, the 
system appears to offer little of substance for grantees. Although 
training is not a major focus of the system, on occasion cluster 
training within a state is offered if there is an identified training 
need common to several geographically close grantees. Even this effort 
has been sporadic within regions, and success is largely dependent on 
the skills of the trainer. It is important to note that current TA 
Specialists are not necessarily content area specialists and most are 
not skilled trainers.
    In most states and regions, state and regional Head Start 
Associations sponsor regular training conferences and events. This is 
an important part of the overall Head Start training network. 
Historically, the regional Head Start T/TA provider was actively 
involved with these events. Agendas were developed in partnership with 
the TA provider and the TA staff members were often training 
facilitators. In the current system, in most regions, there is no easy 
partnership with the Associations, and permission must be established 
six months in advance to even get a TA specialist to attend an 
Association Head Start conference.
    In 2005 there was a study on the effectiveness of the current TA 
system, conducted by a national contractor. The results of that study 
have not been published or released by the Office of Head Start, and 
yet the findings might very well be useful in redefining how TA could 
more be more successfully delivered to grantees.
    Technical Assistance must be closely tied to program performance. 
Support must be available to grantees when there is a decline in any 
area of best practice. Enormous amounts of data are available to 
grantees to enable them to analyze needs and develop specific technical 
assistance plans. Most grantees don't need help in identifying their 
needs and developing plans; they need high quality professional help in 
solving the complex problems that cause them to slip in exhibiting best 
practices. Reauthorization 2007 will bring the Head Start community 
many new, exciting challenges and as we move forward with these 
challenges programs will benefit from the availability of highly 
qualified organizational consultants who understand the complexities of 
Head Start. We will not need help in filling out forms.
    It is relatively safe to say that in the coming years, local 
programs will be faced with many new challenges. Among them will be:
    <bullet> Major organizational culture shifts
    <bullet> Expansion to new lines of business
    <bullet> The challenge of collaboration versus competition with 
state funded pre-K programs
    <bullet> Escalating expenses and limited sources of new income
    <bullet> Major changes in the framework of the families we serve 
and the cultures from which they come
    <bullet> Much greater complexity in how to design effective program 
options and service delivery to meet the needs of changing communities
    <bullet> Much higher expectations for child outcomes
    <bullet> An escalating need to have all staff with higher levels of 
formal education
    <bullet> A much greater need for ongoing training and staff 
development in topics that have grown in complexity
    The Technical Assistance and training system in place to support 
this range of needs will have to be carefully designed and successfully 
executed. The world of Head Start is incredibly complex and deserves a 
support system that acknowledges those complexities and has the 
resources to deliver. The future will require a system that includes a 
foundation of support not only for local programs but for regional and 
federal overseers as well, and the support must come from highly 
qualified, highly professional sources who understand not only the 
complexity of Head Start and the growing field of early childhood 
services, but who also know the complexities of organizational 
development and systems management. Head Start is a seven billion 
dollar business, requiring world class supports.
    We need a TA system that at least:
    <bullet> Has the capacity to understand the complexities of Head 
Start and the growing state Pre K efforts, as well as organizational 
structures; systems management; and futuristic thinking
    <bullet> Works in active and supportive partnerships with local 
programs, state and regional Head Start Associations and regional 
offices
    <bullet> Sets jointly defined work goals with the above 
organizations
    <bullet> Has the capacity to employ qualified professional staff 
assigned to work with local programs
    <bullet> Has the capacity to ensure their staff has ongoing 
training to maintain their professional standing
    <bullet> Establishes a unified approach across all states and 
regions to ensure an even delivery system
                                 ______
                                 
    Chairman Kildee. Ms. Elloie.

  STATEMENT OF PEARLIE ELLOIE, DIRECTOR, OFFICE FOR CHILDREN, 
        YOUTH AND FAMILIES, TOTAL COMMUNITY ACTION, INC.

    Ms. Elloie. Mr. Chairman and members of the committee, I am 
pleased to have the opportunity to testify today on the current 
plight of low-income children and families in New Orleans 
following Hurricane Katrina.
    On Monday, August 29th, when Hurricane Katrina passed over 
the city of New Orleans, the power of this major hurricane 
caused breaches in three levies, flooding 80 percent of the 
city. What happened after this massive flooding was a nightmare 
that shook the Nation.
    The weekend before Katrina hit, more than 250,000 persons 
packed their belongings for what they thought was a 3-day 
period. Sadly, thousands of New Orleanians remained in their 
homes, and more than 20,000 people fled to the Superdome and 
the Convention Center. I am often asked why these individuals 
and families did not try to escape the hurricane. The answer is 
simple. Thousands of persons did not leave because they did not 
have transportation. These families had no cars, nor did they 
have sufficient available funds or credit cards to book hotel 
accommodations. These families had no other choice. They were 
simply trapped and could not escape.
    The events of this fatal weekend began a journey of fear, 
despair and destruction for much of the city's population, 
particularly impoverished individuals and families who, even 
before Katrina, lived on the edge of existence. In the haste of 
transporting individuals and families from the Superdome and 
the Convention Center, children were separated from their 
parents. Families were separated, and elderly couples were 
separated. Many persons boarded aircraft unaware of their 
destination, landing in places completely unfamiliar to them. 
Our city, our people and our Head Start program were in 
shambles, buildings destroyed, staff and families evacuated to 
places throughout the Nation, lives lost, homes destroyed, 
vital records and family historical documents destroyed, and, 
most devastating, the loss of a sense of community. We felt 
like strangers in our own homeland.
    Despite our feelings of personal and community loss, 
however, the Head Start grantee staff moved into action. We 
immediately opened offices in Baton Rouge, Louisiana, some 86 
miles from New Orleans. Head Start was uniquely qualified to 
take on this mission. Our program deals with families on a 
continuous basis who are in crisis. Our organization serves as 
a source of information and assistance to hundreds of families. 
Our networks are wide-ranging, and we have the partnerships 
across the city to ensure seamless service delivery systems. We 
were there for families to turn to for advice and counsel in 
times of sorrow and need. I am proud to say that Head Start is 
the ultimate first responder. We were there for our families 
from day one, and we continue to be there for them today. Much 
of what was accomplished within the first few months following 
Katrina could not have been done without the existence of Head 
Start.
    It is very hard for me to find the precise words that 
describe the New Orleans I saw following the hurricane. The 
best that I can tell you was that large parts of the city were 
completely devastated. For more than 2 weeks, parts of New 
Orleans had languished in more than 3 to 10 feet of stagnant 
floodwater. Trash and debris was everywhere. Buildings were 
completely destroyed. Abandoned cars covered neutral grounds 
and the areas under overpasses and elevated roadways. The city 
was dark and desolate.
    Our Head Start program, however, managed to stay ahead of 
families. As families began to come back to the city, we 
started opening Head Start centers. I am very proud to say 
that, on November 14, 2005, the first Head Start center was 
reopened. Within 6 months, we opened seven other centers. The 
experience that Head Start had following Katrina was that if 
there is an agency that can help parents recover, it is Head 
Start.
    The situation today, while much improved, is still dismal. 
We are in need of urgent help and assistance, and there are 
three things, three recommendations, that I would like to offer 
to the committee.
    The first is that our families are in need of affordable 
housing. It is a critical need, and we must do something to 
make sure that people do receive this.
    The second thing is the Head Start program needs more 
flexibility in how it utilizes its funds. Our updated community 
assessment reveals and our experience reveals that the need for 
infant-toddler care has outstripped our resources. We need the 
flexibility of using funds where a community assessment says it 
is needed. We also need some assistance in bringing back our 
buildings.
    It was my intent to share with you the status of the Head 
Start families after the storm. Much of what I have shared with 
you may have been seen on your evening news. However--and we 
have talked about the challenges of high crime, but what you 
may not have seen or witnessed is the spirit of hope in our 
citizens. We have returned home to the city we love, and we are 
confident that, like the mythical birth of Phoenix, we shall 
rise again from the devastation of Katrina and build a better 
New Orleans, and Head Start must and should be a part of that 
recovery.
    I thank you, Mr. Chair and committee members, for allowing 
me the opportunity to speak with you, and I stand ready to 
respond to any questions you may have.
    Chairman Kildee. Thank you, Ms. Elloie.
    [The statement of Ms. Elloie follows:]

Prepared Statement of Pearlie Hardin Elloie, Head Start Director, Total 
                         Community Action Inc.

    Mr. Chairman, members of the Committee, I am Pearlie Hardin Elloie, 
the Head Start Director of the Total Community Action Head Start 
program in New Orleans, LA. I am pleased to have the opportunity to 
testify today on the current plight of low-income children and families 
in New Orleans following Hurricane Katrina.
    From March 2005 through the end of July, 2005, the New Orleans Head 
Start Program pre-registered 2618 three and four year old children and 
204 infants and toddlers in its 34 Head Start centers and eight (8) 
family day care homes for the 2005-2006 program year that was to open 
for children on Tuesday, September 6, 2005. On Monday, August 22nd, 
staff returned to work following the annual vacation period. On Friday, 
August 26th and Saturday, August 27th, staff delivered supplies to the 
Park Plaza Hotel in preparation for the annual Pre-service Training 
Program. That same weekend, thousands of citizens fled the city. On 
Monday, August 29th Hurricane Katrina passed over the city of New 
Orleans. The power of this hurricane caused major breeches in three 
leeves--flooding 80% of the city. What happened after this massive 
flooding was a nightmare that shook the nation.
    The weekend before Katrina hit more than 250,000 persons packed 
their belongings for what they thought would be a three-day period. 
Sadly, thousands of New Orleanians remained in their homes and more 
than 20,000 people fled to the Superdome and the Convention Center. I 
am often asked why these individuals and families did not try to escape 
hurricane Katrina. The answer is simple; thousands of persons did not 
leave because they did not have transportation. These families did not 
have cars nor did they have sufficient available funds or credit cards 
to book hotel accommodations. Generations of these families lived 
within blocks of each other in New Orleans. They had no contacts in 
other places. These families had no other choice; they were simply 
trapped and couldn't escape
    The events of this fatal weekend began a journey of fear, despair, 
and destruction for much of the city's population, particularly 
impoverished individuals and families who, even before Katrina, lived 
on the edge of existence. In the haste of transporting individuals and 
families from the Superdome and the Convention Center children were 
separated from their families, families were separated and elderly 
couples were separated. Many persons boarded air craft unaware of their 
destinations--landing in places completely unfamiliar to them. Our 
city, our people and our Head Start Program were in shambles--buildings 
destroyed, staff and Head Start families evacuated to places throughout 
the nation, lives lost, homes destroyed, vital records and family 
historical documents destroyed and, most devastating, the lost of a 
sense of community; we felt like strangers in our own homeland.
Head Start As A First Responder
    Despite our feelings of personal and community lost, the Head Start 
grantee staff moved into action. We immediately opened offices in Baton 
Rouge, La staffed by three persons--the Executive Director, the 
comptroller and me, the Head Start Director.
    Head Start was uniquely qualified to take on this mission. Our 
program deals with families in crisis on a continuous basis year round. 
Our organization serves as a source of information and assistance to 
hundreds of families. Our networks are wide ranging and we have 
partnerships across the city to assure a seamless service delivery 
system. We are there for families to turn to for advice and counsel in 
times of sorrow and need. I am proud to say that Head Start is the 
ultimate first responder. We were there for our families from day one 
and we continue to be there for them today. Much of what was 
accomplished within the first few months following Katrina could not 
have happened without Head Start. In this time of critical need, our 
families turned to us for comfort, support, information and assistance 
and we were there for them. This effective rapid response could only 
have been done by Head Start and we did it well.
    Immediately following the opening of our Baton Rouge office we 
focused on the following tasks to ensure we could quickly get services 
to children and their families:
    <bullet> Locating and making contact with 323 displaced Head Start 
employees
    <bullet> Assisting employees in adjusting to their new locations by 
1) referring them for employment in Head Start programs throughout the 
country; and 2) assisting them in contacting their displaced coworkers
    <bullet> Assessing damage to Head Start facilities
    <bullet> Devising plan to bring centers back into operation
    <bullet> Reopening New Orleans office
    <bullet> Assisting staff in their return to New Orleans
    <bullet> Keeping funding source apprized of rebuilding of the Head 
Start Program
    <bullet> Using data from multiple sources to develop the 
organization's Response to Crisis.
    <bullet> Contacting Head Start programs in Region VI and Region IV 
seeking their assistance in locating staff and Head Start families
    <bullet> Obtaining commitment from these programs to serve 
displaced New Orleans Head Start families
    <bullet> Serving as a point of contact for Head Start families and 
staff in their effort to locate family members
Head Start Buildings Damaged
    In order to accomplish the goal of reopening a Head Start center 
before November 15th, we had to be in the city. So, in late September I 
went home for the first time since Katrina. It is very hard for me to 
find the precise words that describe the New Orleans I saw. The best 
that I can tell you was that large parts of the city were completely 
devastated. For more than two weeks parts of New Orleans had languished 
in three to more than ten feet of stagnant flood water. Trash and 
debris were everywhere. Buildings were completely destroyed. Abandoned 
cars covered neutral grounds and the areas under overpasses and 
elevated roadways.
    The city was very dark and desolate. There were no lights, no 
people moving about, no dogs roaming the streets, no birds, no 
butterflies, and most sadly, no children playing. Where there was once 
green landscape, now everything was brown. Gnats and flies swarmed 
freely. The stench was terrible and sickening.
    An assessment of the 34 Head Start centers revealed the following:
    1. eleven centers sustained minimal damage
    2. five centers sustained damage due to rising water and 
substantial water damage due to severe roof damage
    3. thirteen centers sustained severe damage due to flooding and 
wind damage
    4. five centers required tear down and rebuild
    5. eight family day care homes sustained severe damage
    We now faced the loss of two-thirds of our facilities, a city still 
reeling from the shock of Katrina, displaced staff and Head Start 
families already beginning to return to New Orleans. The program 
attempted to stay one step ahead of returning Head Start families; we 
wanted Head Start to be in place when families returned. These early 
returning families were coming back to New Orleans primarily because of 
job demand. We had to have safe and nurturing environments for these 
children who had just experienced so many traumas. The program 
implemented its Head Start Redevelopment Plan focusing on those eleven 
centers that sustained minimal damage. On November 14, 2005 the first 
Head Start center, Diana H S center, was reopened. Within six months 
seven additional centers were opened. The other three facilities were 
lost to Head Start when owners did not renew leases.
After the Hurricane: Low Income Children and Families Still Suffering
    The misery from hurricane Katrina is wide-spread and to this day 
continues to impact the city's quality of life. What is life in New 
Orleans like in February, 2007? The 2005 American Community Survey 
listed the population of Orleans Parish as 437,186--down from the 
467,033 count in Census 2000. The 2006 Louisiana Health and Population 
Survey conducted by the Louisiana Public Health Institute on behalf of 
the Louisiana Department of Health and Hospitals and the Louisiana 
Recovery Authority indicated that New Orleans' population as of August, 
2006 was 191,139--up from the 158,353 count for January, 2006.
    The city's health care system has been devastated. Many hospitals 
were destroyed in the storm and have not yet reopened. The largest 
public hospital where many Head Start families received health care, 
especially emergency health care, remains closed. Neighborhood health 
clinics have not reopened, and tragically, mental health services are 
almost non-existent.
    About half of the families we serve are currently living in 
trailers or are living with other families--often three families living 
in a two bedroom apartment. Affordable housing is our biggest 
challenge. Large sections of public housing developments remain closed; 
some scheduled for demolition. Low-rent housing is a thing of the past. 
Only a limited number of apartments and houses are available for rent. 
This had led some landlords in the area to increase rent 75% or more. 
An apartment that may have cost $500 per month before Katrina may now 
cost about $1200. This is way out of the reach of the families that 
Head Start serves and other low income individuals and families.
    Jobs are very limited for Head Start families. Many of our families 
are employed in the service industry--working at local hotels, 
restaurants, and other service industries. And while they might earn $8 
to $10 per hour, these jobs often do not provide benefits to their 
employees.
    The children we serve in Head Start have very much been impacted by 
the storm. We are finding that children are clinging to their mothers a 
bit more. They are experiencing more anxiety and are scared that 
something may happen to them. We try to counteract that by providing 
them a safe and positive environment. We also work with our teachers to 
help them identify children who may need extra help. We have engaged 
the assistance of mental health professionals in this initiative.
    The public transportation system has been damaged. Bus lines have 
been drastically cut or eliminated, the number of buses online is 
reduced and buses are not running as regularly as they did before 
hurricane Katrina. This means that it is harder for low income families 
to get work and to get around. The cost of riding the bus which is 
$1.25 a person each way can be very expensive for families with 2 or 3 
children and a low paying job.
    Immediately following hurricane Katrina our Head Start program 
spent a considerable amount of time finding services for displaced 
families and their children. Today, many of the same problems exist 
more than a year later. Families still need affordable housing, 
assistance in replacing lost documents, schools for their school-age 
children, and referrals for other social service needs. Head Start is 
still here for these families.
Lessons Learned
    Head Start staff and families learned hard lessons as a result of 
Hurricane Katrina.
    What happened after Katrina changed forever the approach we use in 
moving families toward self-sufficiency. We are resolved that Head 
Start families and staff will never again face such an emergency 
unprepared. Head Start developed a plan of action geared toward 
ensuring that families and staff are prepared to swiftly move their 
families to safety in the event of another emergency. The objective of 
the plan was to provide information to families so that they have both 
the knowledge and the resources to make informed decisions that ensure 
the safety of their families in the event of an emergency. Critical 
components of the plan are 1) assisting families in developing an 
emergency preparedness plan. Each family received a copy of the DVD 
entitled ``Preparing for The Big One.'' This DVD, which provides 
information and instructions on how one can prepare for a hurricane, 
was developed by Total Community Action, Inc., the Head Start grantee. 
The irony is that the distribution of this DVD was scheduled to begin 
on August 29, 2005, the day Katrina passed over New Orleans; 2) 
encouraging Head Start families to maintain contact with individuals, 
families and others who provided a safe harbor for them following 
Katrina. This is especially critical for those families who do not have 
distant friends and relatives that could assist them in an emergency; 
3) soliciting the assistance of other Head Start Programs in Regions VI 
and IV in the event Head Start families were to be evacuated to their 
communities. Head Start programs in other communities were the first 
contacts many families and staff made when they evacuated to a 
community where they did not have family or friends; and 4) giving 
special emphasis to employing strategies that have proven effective in 
helping individuals and families move permanently out of poverty.
    The vast majority of individuals and families that did not evacuate 
the city in advance of Hurricane Katrina were poor persons, those who 
had no resources to take them to safe harbor. Additional, many of those 
families experienced generational poverty--not one generation had been 
successful in freeing itself from the shackles of poverty. Again, Total 
Community Action, Inc., the Head Start grantee, provided leadership in 
this effort. The Agency had developed its Eight Point Poverty Reduction 
Plan geared to assisting individuals and families move permanently out 
of poverty. The plan presents eight asset building strategies that have 
proven to be effective poverty reduction strategies in communities 
throughout the nation where they have been employed.
    The Head Start program has given emphasis to two of these 
strategies: Earned Income Tax Credit (EITC) and the Individual 
Development Account (IDA). The EITC program reduces a low income wage 
earners' tax liability and provides the individual a tax refund, if 
eligible. It has been documented that the EITC program is one of the 
largest anti-poverty programs in America. The IDA program is a forced 
saving program for low-income individuals and families that provides 
opportunity for persons to save income to acquire an asset such as a 
first time home, start a small business or to pursue post high school 
educational opportunities. Shortly before Katrina passed over New 
Orleans a young Head Start family moved into its first home, acquired 
through its participation in IDA program.
    The last critical piece of this plan is implementation of a 
Financial Literacy Program geared to increasing the individual's and 
family's skills in acquiring and maintaining financial stability, 
learning how to make better use of family income, whatever it may be.
    The hope of this initiative is to assist Head Start families create 
and implement action plans that move them permanently out of poverty. 
It is an awesome task, but I believe that Head Start is up to the task.
Recommendations
    The situation, however while much improved, is still dismal in New 
Orleans. We are in need of help and we need it now! Low-income children 
and families can no longer afford to wait. As Congress moves forward on 
how to rebuild the gulf region let me give you some thoughts based on 
what I see everyday and how I think you can help:
    <bullet> There is an incredible lack of affordable housing for low-
income children and families. This is taking a terrible toll on the 
parents we serve and their children. We need to find a way to ensure a 
stable housing situation for all of the families who need help in New 
Orleans. This means we need to rebuild public housing complexes and 
provide more funding for section 8 housing vouchers and get them out 
quickly to people.
    <bullet> Head Start programs need more flexibility in providing 
services. We are finding that post-Katrina there is an incredible need 
for infant and toddler care. I believe that the Head Start 
reauthorization should provide Head Start programs the flexibility to 
convert their slots downward to serve more infants and toddlers if the 
need is there. I also believe that the income guidelines for Head Start 
should be raised as well. Many families are working, but because of the 
lack of affordable housing, more of their salaries are going to pay for 
a place to live. They might make more than they did before Katrina, but 
the cost of living is much greater. These families need and deserve our 
help.
    <bullet> We need immediate help in getting our buildings and 
facilities cleaned up, rebuilt and renovated. We are now more than a 
year later and we do not have the necessary safe spaces to serve 
additional low income children and their families.
    It was my intent to share with you the status of Head Start 
families after the storm. Much of what I have shared with you may have 
been seen on your evening news. True, we do have challenges of high 
crime rates, insufficient housing, a slowly rebuilding infrastructure, 
a wounded health care system and a broken public education system. 
However, what you may not have seen or witnessed is the spirit of hope 
in our citizens, we have returned home to the city we love and we are 
confident that like the mythical bird, the phoenix, we can rise from 
the devastation of Katrina and build a better New Orleans.
    Head Start can continue to be a beacon of hope, information and 
resource to eligible families. We must continue to be a viable part of 
the recovery of our beloved city.
    I hope that my testimony was helpful to you in understanding the 
impact of hurricane Katrina on low income children and families. I urge 
all of you to come to New Orleans and visit our Head Start program and 
see the situation for yourself. I would be happy to answer any 
questions.
                                 ______
                                 
    Chairman Kildee. Dr. Frede.

STATEMENT OF ELLEN FREDE, PH.D., CODIRECTOR, NATIONAL INSTITUTE 
        FOR EARLY EDUCATION RESEARCH, RUTGERS UNIVERSITY

    Dr. Frede. Mr. Chairman, members of the subcommittee, I am 
pleased to present testimony on the coordination between two 
vitally important programs, Head Start and State 
prekindergarten. Collaboration is possible. It is happening 
throughout the Nation. It enhances services to children, and it 
can be facilitated by continuing to increase the quality of 
Head Start and State pre-K.
    In my testimony, I will include information reported by the 
National Institute for Early Education Research on the national 
picture and on my recent experience as the pre-K administrator 
of the State of New Jersey. My experience with early childhood 
education programs began as a high school summer volunteer in 
the early days of Head Start, and has included teaching and 
research in diverse settings for over 30 years. Thus, I bring a 
multifaceted view to the issue of mixed delivery of preschool.
    In 2 weeks, the National Institute for Early Education 
Research will release the sixth annual report of State-funded 
preschool drawing a picture of preschool throughout the country 
and on a State-by-State basis. This report will show that pre-K 
enrollment continues to grow across the Nation. It also shows 
that all but 2 of the 38 States funding pre-K collaborated with 
Head Start agencies. These collaborations take varying forms 
with many States supplementing Head Start to expand access. 
Others layer funding to increase hours from half day to full 
day, or they may also augment quality through class size 
reduction, professional development and enhancement of teacher 
salary.
    Through coordination, Head Start agencies are able to be 
part of a larger early learning community and provide a more 
seamless experience for children. These collaborations offer 
opportunities for synergies and professional development for 
Head Start and district staff as well as better integrated 
services for children with disabilities. However, collaboration 
can present a complex funding situation and result in 
burdensome accounting systems and time-consuming reporting 
requirements. Adding even more complexity are the disparate and 
sometimes contradictory program standards imposed by the 
different funding streams.
    For example, Head Start requires that the Parent Policy 
Council help determine what curriculum should be used in the 
classroom. Yet for many State pre-K programs, the district 
board of education makes this decision. State and local 
districts may require specific child assessment and program 
evaluation systems, while the Office of Head Start requires 
others. This leaves teachers and administrators spending 
excessive time on redundant and unhelpful assessments that 
could be spent on teaching.
    Particularly troubling are States where the pre-K program 
is universally available, or the income eligibility is less 
stringent. Then Head Start has the necessity of segregating 
children by income or restricting parent choice in order to 
partner with Head Start. It is especially challenging for Head 
Start agencies that use child care dollars to extend the day to 
handle the conflict created when a child's parent loses her 
eligibility because she has lost her job. For the sake of the 
child, the Head Start agency does not want to deny the full 
program, but for the sake of their budget, they need to fill 
that half-day slot.
    Head Start directors and other staff members throughout the 
country are struggling to meet these challenges. For the most 
part, they welcome the opportunity because they believe Head 
Start provides a special service to young children from low-
income families, and coordination with State pre-K and child 
care can enhance this service.
    Ultimately, high-quality Head Start programs are the key to 
making these collaborations work effectively. I have the 
following suggestions for what Head Start reauthorization can 
do to facilitate collaboration by helping to ensure that this 
critical and valuable program continues to improve.
    First, require that 50 percent of the Head Start teachers 
get a B.A. degree and training in early childhood education, 
and ensure that funding is available for salaries comparable to 
those of public school teachers.
    Second, encourage and allow flexibility so that children 
can be served in mixed-income classrooms as long as they 
receive all mandated, comprehensive Head Start services.
    Third, allow Head Start agencies that use childhood dollars 
to count this subsidy toward their local match. States should 
ensure that the subsidy continues as long as the child is 
eligible for Head Start.
    Fourth, provide incentives and flexibility to ensure an 
ample pool of high-quality applicants for Head Start grants. In 
New Jersey and other State pre-K programs, mixed-delivery 
systems of public school, not-for-profit and for-profit 
programs working together have shown good results.
    Fifth, funds should be made--this is expected of a 
researcher, right? Funds should be made available for research 
to establish the effects of augmented quality and duration of 
Head Start. A randomized trial could compare Head Start 
Programs that meet current performance standards to super Head 
Start with a class size of no more than 16 children and better 
paid, certified teachers. Other studies could compare the 
length of day and the number of years. Such investigations will 
make full use of Head Start as the Nation's laboratory for 
developing early education.
    I think that this kind of collaboration is very important 
and needs the support both of the Federal Government and of 
State governments, and whatever the subcommittee can do to 
facilitate that would be welcomed.
    Thank you.
    Chairman Kildee. Thank you very much, Dr. Frede.
    [The statement of Ms. Frede follows:]

    Prepared Statement of Ellen Frede, Ph.D., Co-Director, National 
   Institute for Early Education Research (NIERR), Rutgers University

    Mr. Chairman, members of the Committee, I am Ellen Frede, Co-
Director of the National Institute for Early Education Research (NIEER) 
at Rutgers University and Associate Professor at The College of New 
Jersey. I am pleased to be invited to present testimony on coordination 
between Head Start programs and state-funded pre-kindergarten. 
Collaboration is possible, it is happening throughout the nation, it 
enhances services to children and it could be facilitated by continuing 
to increase the quality of Head Start. I include information reported 
by NIEER on the national picture and draw on my recent experience as 
the pre-k administrator for the state of New Jersey.
    My experience with early childhood education programs began as a 
summer volunteer in the early days of Head Start and progressed through 
teaching in child care, public school, and Head Start classrooms to 
teacher education, research and most recently, to administering state-
funded preschool programs in New Jersey which collaborate with Head 
Start agencies. Thus, I bring a multi-faceted view to the issue of 
mixed delivery of preschool.
    In two weeks, the National Institute for Early Education Research 
will release the sixth annual report on state funded preschool drawing 
a picture of preschool throughout the country and on a state-by-state 
basis. This report will show that pre-k enrollment continues to grow 
across the nation.
    It also shows that all but two of the 38 states funding pre-k 
collaborated with Head Start agencies. These collaborations take 
varying forms from state to state.
    <bullet> Thirteen states supplement Head Start agencies' funding so 
that they can serve more children.
    <bullet> Others layer funding to increase the hours from half-day 
to full-day. This enhances the educational value of the program and 
better meets the needs of families. Often, agencies also provide wrap 
around care using state child care dollars. At present only 47% of Head 
Start children are served in full-day programs. But of the 11 states 
where over 75% of the children served in Head Start are in full day 
programs, 9 have substantial collaborations with state pre-k.
    <bullet> Many states fund Head Start to augment quality, for 
example, reducing class size, enhancing professional development, 
adding classroom materials, and paying for teachers certified in early 
childhood education. The need for highly qualified teachers in all 
programs for young children is clear. To attract and keep highly 
qualified teachers salaries must be adequate. In 2005-2006, the average 
pay nationally for Head Start teachers with a college degree was just 
over $30,000. Compare this to the average pay of public school teachers 
which was over $47,000. And this does not account for benefit 
disparities.
    <bullet> Agencies that provide Head Start may also provide the 
state pre-k program in separate classrooms where federal and state 
funds are not co-mingled.
    <bullet> In some states, pre-k funding goes directly to the Head 
Start agency and in others it flows through the local school district.
    Through coordination, Head Start programs are able to be part of 
the larger early learning community and provide a more seamless 
experience for children especially as they transition to kindergarten. 
In addition to serving more children and augmenting hours and 
educational effectiveness, the collaborations offer opportunities such 
as:
    <bullet> Professional development for Head Start staff on state 
early learning standards and district curriculum leading to more 
effective transition to the kindergarten;
    <bullet> Professional development for district kindergarten and 
primary grade staff in developmentally appropriate expectations and 
effective education for young children leading to schools that are 
ready for the diverse abilities of children that come from Head Start 
programs; and
    <bullet> Better integrated services for children with disabilities.
    However, collaboration presents a complex funding situation and 
results in tortuous accounting systems and time consuming reporting 
requirements. Adding even more complexity are the disparate and 
sometimes contradictory program standards imposed by the different 
funding streams.
    For example:
    <bullet> Head Start requires that the parent policy council help 
determine what curriculum should be used in the classrooms, yet for 
many state pre-k programs the district board of education makes this 
decision.
    <bullet> State or local districts may require specific child 
assessment or program evaluation systems while the Office of Head Start 
requires others. This leaves teachers and administrators spending 
excessive time on redundant and unhelpful assessment that could be 
spent on teaching.
    <bullet> Particularly troubling for states where the pre-k program 
is universally available or the income eligibility is less stringent 
than Head Start is the necessity of segregating children by income or 
restricting parent choice in order to partner with Head Start.
    <bullet> It is especially challenging for Head Start agencies that 
use child care dollars to extend the day to handle the conflict created 
when a child's parent loses her eligibility for the child care slot 
because she has lost her job. For the sake of the child, they do not 
want to deny that child the full day program and for the sake of their 
budget, they can't fill a half-day slot.
    Head Start directors and other staff members throughout the country 
are struggling to meet these challenges. For the most part, they 
welcome the opportunity because they believe Head Start provides a 
special service to young children from low income families and 
coordination with state pre-k and child care can enhance this service.
    Ultimately, high quality Head Start programs are the key to making 
these collaborations work effectively. I have the following suggestions 
for what Head Start reauthorization can do to facilitate collaboration 
by helping to ensure that this critical and valuable program continues 
to improve.
    1. Require that 50% of the Head Start teachers get a BA degree and 
training in early childhood education, and ensure that funding is 
available for salaries comparable to those of public school teachers.
    2. Encourage and allow flexibility so that children can be served 
in mixed income classrooms as long as they receive all mandated, 
comprehensive Head Start services.
    3. Allow Head Start agencies that use child care dollars to provide 
an extended day to count this subsidy toward their local match. States 
should ensure that the subsidy continues as long as the child is 
eligible for Head Start.
    4. Provide incentives and flexibility to ensure an ample pool of 
high quality applicants for Head Start grants. In New Jersey and most 
state pre-k programs mixed delivery systems of public school, not-for-
profit and for-profit programs working together have shown good 
results.
    5. Funds should be made available for research to establish the 
effects of augmented quality and duration of Head Start. A randomized 
trial could compare Head Start programs that meet current performance 
standards to ``super'' Head Start with class size of no more than 16 
children and better paid, certified teachers. Other studies could 
compare length of day and number of years. Such investigations will 
make full use of Head Start as the nation's ``laboratory'' for 
developing effective early education.
    Collaboration between Head Start and state pre-k is valuable. 
Effective partnerships are happening throughout the nation that enhance 
services for children. These could be facilitated by continuing to 
increase the quality of Head Start.
                                 ______
                                 
    Chairman Kildee. We will now begin the questions. I 
recognize myself now for 5 minutes. I would like to address a 
question to Dr. Thompson.
    The knowledge of the physical development of the human 
brain in children is quite new. It is certainly different than 
the knowledge of that development we had 42 years ago when Head 
Start was inaugurated.
    How does or how can Head Start use that knowledge?
    Dr. Thompson. Well, I think what the new research on brain 
development is telling us is how significant are the processes 
that start literally at the beginning of a child's life for 
shaping the lifelong architecture of the brain. But even more 
specifically, new research on brain development is also 
describing the emergence of particular areas of the brain that 
relate to the child's capacities, for example, for self-
control, for attention focusing, for planful deliberation, for 
other kinds of cognitive functions that help us understand when 
the neurobiological basis for these skills can emerge and, 
therefore, what we should appropriately expect of children at 
different ages.
    So, in fact, we are coming very close now to a time when a 
wedding of the neuroscience of brain development and early 
education practice can help us give better insights about, 
quite simply, what children are ready to learn and what they 
are capable of doing at different stages of development, and 
certainly that is information that Early Head Start and Head 
Start programs can be poised to incorporate.
    Chairman Kildee. And it seems that even though this was 
established 42 years ago, that they have been doing things that 
actually do recognize what we have discovered since then, the 
physical development of the brain.
    Dr. Thompson. One of the reassuring things, I think--and I 
speak both as a developmental scientist and as the husband of 
an outstanding early childhood educator. One of the reassuring 
things has been discovering how much the brain development 
research is telling us things that best practices have always 
been telling us is true of outstanding early childhood 
education. So, when you hear from several speakers, for 
example, about the importance of emotions and of noncognitive 
skills to children's learning, that is a story that is 
confirmed by the brain development research and about the ways 
in which integrated areas of the brain foster and are 
influenced by both a child's thinking and also the child's 
emotions and also the child's relationships. But that is 
something that good teachers of young children have known for a 
long time.
    So there are new insights to be gleaned from the 
neurobiology, but in many respects, the neuroscience is also 
telling us things and giving us a new reason for doing things 
that good teachers have been doing for a long time.
    Chairman Kildee. So the non-cognitive or, specifically, the 
affective approach, that would have part of the physical 
development of the brain also?
    Dr. Thompson. Well, that is certainly true of many of these 
noncognitive skills, many of them having to do with behavioral 
self-control, sitting still, paying attention, controlling your 
emotions, as well as the motivation to learn, the development 
of curiosity, for example. We know something about the brain 
processes that relate to these, and interestingly enough, some 
of these are the same brain processes that also help children 
intellectually process information better.
    So, when we say that noncognitive skills are important to 
early learning, it is not only that the children who sit still 
are better able to benefit from group learning situations, it 
is also because the same areas of the brain that help children 
focus their attention and learn better are the same areas of 
the brain that also contribute to behavioral and emotional 
self-control. The brain is not divided into intellectual and 
nonintellectual areas. As a result, we have to think about 
children's development in Head Start, in Early Head Start and 
in other programs as being integrated in that way.
    Chairman Kildee. The people who started Head Start were 
somewhat prophetic then, were they not, in the program they 
developed even though they did not have the scientific 
knowledge at that time upon which we can base many of these 
things now?
    Dr. Thompson. Mr. Chairman, years ago when Head Start had 
its genesis, it was focused on young children who were most at 
risk for early school failure, and the wisdom of that time was 
recognizing that children are at risk of early school failure 
not only because of their lacking letter and number skills, but 
because they were also deficient in many of these noncognitive 
skills. In some respects, we could today take a lesson from 
those early days of recognizing how much both the noncognitive 
and the cognitive skills are important.
    Chairman Kildee. Well, thank you very much, Dr. Thompson. 
My time is just about to expire, so I will yield now to my good 
friend, Governor Castle.
    Mr. Castle. Well, thank you, Mr. Chairman.
    I appreciate the testimony of all of you. I am sorry I had 
to miss the beginning of it, and I do apologize for that, and I 
particularly have a great deal of empathy and sympathy for the 
problems in New Orleans and what you have been through there, 
and we congratulate you on your efforts to come back.
    I see in your background--I went down and visited New 
Orleans and got involved with all of the colleges you seem to 
have degrees from at some time or another, so they are doing a 
good job, too, I think, in terms of education.
    I would certainly like to build on probably what Dr. Frede 
was talking about, but perhaps hearing from others as well, and 
that is the whole business of other services which are now 
being provided I am going to say more or less since the start 
of Head Start to children of pre-K, for example, or other 
private programs or whatever it may be. I am a tremendous 
believer in Head Start, and I know it does a lot more than just 
education, but for the moment, I want to focus on the 
educational component of this, and I think some of these 
programs rival or exceed Head Start; some do not do as well, 
but they are out there to a degree now, and they were not 
before.
    My question is how should Head Start be working to 
integrate with these programs and these services and the school 
readiness programs and not competing against them. The interest 
here is obviously giving every child an opportunity, not having 
one program necessarily being better than another, and I am 
concerned about their impediments to that coordination and 
probably because of different agencies that may run these 
various things that may be harmful in that area.
    Is there anything that we could be doing here in Congress, 
for example, to be helpful in terms of making sure that any 
program that offers opportunities for young children, 
particularly young, lower-income children, to be able to get up 
to that starting line are equal? Is this something that we can 
be doing more on here in Congress?
    I am looking for volunteers.
    Ms. Elloie. I would like to speak to that, Mr. Castle.
    One of the activities that can happen either locally or at 
a State level--we have in the State of Louisiana a Head Start 
Coordination Office, and that is a person who attempts to bring 
together all of those entities that work with preschool 
children, and what our hope is is that we will form a system 
that can ensure that most children within the limits of our 
resources can attend a qualified preschool program. And there 
are levels of quality and of preschool programs, Head Start 
being that one entity that provides not only for the cognitive 
development, but for the noncognitive development, and that is 
a real critical issue so that we are not in competition with 
one another, but that we work together to make sure that 
children are not left behind. And that is the biggest issue, if 
that office can bring people to the table and say, ``What can 
each of you do to help this segment of our population to make 
sure that this school readiness gap continues to close?'' so 
that is the opportunity--full coordination with the State 
collaboration office that we do have in the State of Louisiana.
    Mr. Castle. Thank you.
    Mr. McKeever.
    Mr. McKeever. In our county, we coordinate and have an 
interagency coordinating council that gets all of the preschool 
programs, including the schools of Head Start and so on, 
together to meet three times a year. We refer students to each 
other. If a public school identifies a child who may have more 
problems within the family, they will refer him to us. If we 
see a child who maybe needs the public school more in terms of 
academics, we refer him to them. We go back and forth 
throughout the year. School districts in our area, for example, 
give us free transportation for our children in busing. That is 
the only way we survive. They also provide us with space in 
buildings. We at the same time give priority to some of the 
referrals. Many of the referrals that come to us are children 
who need the whole approach, the family approach.
    I think the most difficult area of competition ends up 
being for staff. As our staff become more educated--and half of 
my staff have associates, and half have bachelor degrees--we 
cannot afford to compete with higher education. We cannot 
afford to compete with public schools. We do not have the money 
to, and maybe we are not intended to, but we need a little bit 
more than we have now. The coordination is essential for the 
programs, all of our programs, to survive.
    Mr. Castle. Okay. Thank you.
    Dr. Frede.
    Dr. Frede. I would like to reiterate the importance of the 
coordination and also the richness that having different 
partners brings to the endeavor of educating young children.
    I just want to clarify that public school programs, child 
care programs, Head Start Programs, if they are high-quality 
educational and care programs, they are all doing cognitive and 
noncognitive. It is not that one does one and one does a whole 
child. But the important, special thing that Head Start brings, 
I think, is more resources committed to the family, and that 
often is neglected in other programs, and it is important that 
we keep that for the children who particularly need it.
    Mr. Castle. Ms. Haxton, my time is up, so it is up to the 
Chairman as to whether you are going to be allowed to speak or 
not.
    Chairman Kildee. Go ahead, please.
    Ms. Haxton. There is the potential for competition. Ohio 
had an experience of being the poster child for State-funded 
Head Start, and when funding was shifted from general funds to 
TANA funds, more and more providers were brought into service.
    We try very hard to work with our collaboration project to 
ensure that the neediest children get services from Head Start. 
Where there is competition, it is very possible that you could 
enact legislation that would simply say when Federal dollars 
are used for any element of early childhood education, it is 
important that the Head Start centers are full first. We 
provide services to families who need the services. We have 
slots going empty in some cases.
    The other issue--and I think it is going to be resolved, 
hopefully, in reauthorization--is that we need the flexibility 
to ensure that our community needs get met with providing 
services. So, if we need full-day services and not part-day 
services, programs need to be able to shift to do that.
    Mr. Castle. Good. Thank you all very much.
    I yield back, Mr. Chairman.
    Chairman Kildee. Thank you, Governor.
    Ms. Hirono.
    Ms. Hirono. There is such a compelling case for early 
childhood education all across the country, and Head Start was 
definitely a way to focus on the neediest families in our 
country. Don't you think it is time--and I think this is a 
question for Dr. Thompson. Don't you think it is time that our 
country made a significant commitment to early childhood 
education, and that if the Federal Government is going to get 
into the education arena, that there has to be so much more 
emphasis and resources put into supporting early childhood 
education all across our country? I guess that is a loaded 
question.
    Dr. Thompson. It is a question that I could not disagree 
with. Certainly there is great value in investing in early 
childhood development, and indeed, the story from that is 
coming not only from educators and from developmental 
scientists, but from some economists who are simply arguing 
that the investments have a far greater fiscal return in public 
investments and many other things.
    The important thing to recognize, however, is that the way 
we invest educationally in young children has to look different 
from the ways we invest educationally in older people, and if 
we simply downscale our educational models for the primary 
grades, or, for that matter, the secondary grades, to early 
childhood education, we will come up with an educational model 
that research has shown not only does not result in children 
learning more, but actually leaves them more frustrated, less 
self-confident and less interested in school.
    Ms. Hirono. I have a further question for I think it is Ms. 
Haxton.
    I was very distressed in reading through your testimony of 
all of the assessments and everything else that your programs 
have to go through, but in particular what I wanted to follow 
up on was this study that you pointed to, a 2005 study 
regarding the effectiveness of the Technical Assistance System 
and that no one seems to have a copy of that study.
    Can we request, Mr. Chairman, that we get a report from the 
Office of Head Start as to the findings of this study?
    Do you have any comments?
    Ms. Haxton. I am not aware that that study has been 
released. It is my understanding that one of the contracting 
agencies conducted a study of the Head Start TA system in 
approximately 2005, and that the results have been compiled, 
but nobody has seen those results. And if any of my colleagues 
have seen them, I----
    Ms. Hirono. Mr. Chairman, would it be appropriate for us to 
request of Head Start that they provide us the copy of the 
study if such a report is in existence?
    Chairman Kildee. Yes, we will ask them to share with us the 
results of that study.*
---------------------------------------------------------------------------
    *Linda Rosenberg, Michelle Derr, Kimberly Boller, Kristin Hallgren, 
Laura Hawkinson, Krisztina Marton, and Mina Dadgar. ``Meeting Head 
Start and Early Head Start Grantee Needs for Training and Technical 
Assistance: Final Report of the Head Start Training and Technical 
Assistance Quality Assurance Study.'' Submitted to the U.S. Department 
of Health and Human Services, Administration for Children and Families. 
Princeton, NJ: Mathematica Policy Research, Inc., November 1, 2006. The 
report has been submitted and placed in permanent archive file.
---------------------------------------------------------------------------
    Ms. Hirono. Thank you. I yield back my time.
    Chairman Kildee. The Chair recognizes now for 5 minutes my 
good friend from Louisiana Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    Being from Louisiana, I want to make sure we are 
pronouncing your name correctly, ``ill-ooh-wa''?
    Ms. Elloie. ``el-ooh-wa.''
    Mr. Boustany. A good French pronunciation.
    I am from southwest Louisiana, and I want to say thank you 
for all of the work that you have done in New Orleans. The 
challenges were great before the hurricanes and certainly are 
much greater now.
    In your testimony, you advocate for flexibility to increase 
income guidelines for Head Start. Is that just for New Orleans 
or nationwide?
    Ms. Elloie. We are looking at nationwide some review of 
income guidelines. I am sure my colleague Mr. McKeever will 
agree with me. To be specific to New Orleans, since Hurricane 
Katrina, many of the industries have increased their salary 
scale. They have gone to $8 to $10, even $12 per hour. However, 
many of these jobs do not extend benefits to their employees so 
that a greater percentage of your salary is now going for high-
income or high-rent rates because the rental rates are very, 
very high. So we are finding across the country that our 
families' incomes are going up, but they are having to use more 
and more of their incomes just to sustain themselves and their 
families, and we want Congress again to give us the opportunity 
to serve those families who are making steps toward becoming 
self-sustained.
    Mr. Boustany. Okay, because I guess that begs the next 
question, and that is, if we have currently eligible children 
who are not being served by the program and not being enrolled, 
and we are trying to deal with this money situation and, you 
know, eligibility requirements, how can we justify changing 
the--or taking in higher-income children when we have those who 
are still not being served? That is a question, I think----
    Ms. Elloie. I do not think that is what we are asking.
    Mr. Boustany. Okay.
    Ms. Elloie. When there are children who need the program, 
we are all committed from day one to serving the neediest of 
the needy, and so in communities where there are children whose 
incomes fall far below the poverty level, we will start at that 
level, and we will end at that level. We will not serve kids 
above or even ask you to increase the income if we did not 
believe that we still had a job to do, and so our commitment is 
to make sure that we continue in Head Start to serve the 
neediest of the needy children.
    Mr. Boustany. I thank you.
    Mr. McKeever.
    Mr. McKeever. I think it is important when you look at the 
income guidelines that we are asking for 130 percent, where 
Medicaid and food stamps are at 180 and 200 percent in some 
situations. If you were to take the minimum wage for a family 
of three, they would be ineligible for Head Start. Now, at this 
time--in my State. The Federal minimum wage has not changed 
yet. The whole idea of eligibility is not contingent only upon 
the concept of income. The concept is on the riskier families, 
on those families in the greatest need, families that may be 
abused, going through domestic violence, a variety of things. 
It is a family program. It is not just an income program 
relating to a child.
    It is very important that you consider that area. The local 
program needs the flexibility to determine which child would be 
served, which family would be served according to the needs 
reflected in that area. But again, it is so low at this time, 
the minimum wage in many situations will not permit that family 
to be eligible for Head Start's income guidelines.
    Mr. Boustany. Dr. Frede, I have programs, Head Start 
programs in my district that are currently being administered 
by an interim provider from out of state, and you have 
suggested that Head Start reauthorization should provide 
incentives and flexibility to ensure that we have an ample pool 
of high quality applicants for grants. Can you elaborate more 
in your experience in New Jersey in creating a system that 
creates public schools, not-for-profit and for-profit programs, 
working together, and what kind of flexibility do we need to 
look at as we go forward with the reauthorization?
    Dr. Frede. When I first joined the State, I actually found 
the idea of having for-profits in education distasteful. I 
thought that people shouldn't make a profit on education, and 
these are children. But we needed all-comers. We needed to 
serve children rapidly and many among--I knew somewhat from 
experience but learned even more in administering the program 
that quality is not owned by one auspice. And that we now have 
some very high quality programs in New Jersey and elsewhere 
that are for-profit, not-for-profit Head Start public schools, 
but the unique thing that I found about the for-profit 
providers is that they could often be more nimble. They could 
get built more quickly. And so what we did in our coming up 
with our budgeting requirements was because we couldn't ask a 
for-profit entity to take this on and not make a profit, and so 
we allowed a cap on profit within the administrative cap. They 
could go up to 2.5 percent of the direct costs in the 
administrative cap, which is a very small profit margin. Most 
business aren't interested in that. In fact, none of the large 
chains took us up on it. These are still the small programs 
that are very interested.
    I see a gavel.
    They are very interested in the quality, in quality early 
childhood education, and it worked out great. We had good 
programs, we had bad programs and all of the auspices. Most of 
them are good, and they are getting better.
    Chairman Kildee. Thank you, Mr. Boustany.
    Mr. Grijalva for 5 minutes.
    Mr. Grijalva. Thank you, Mr. Chairman, and if I may, with 
the Chair's concurrence, I would like to submit for the record 
a communication from the American Library Association dealing 
with the issues of Head Start and librarians, also 
communication for the record from the National Migrant and 
Seasonal Head Start Association.
    Chairman Kildee. Without objection.
    [The letter follows:]
                              American Library Association,
                                                 February 27, 2007.
Hon. Raul Grijalva,
House of Representatives, Washington, DC.
    Dear Congressman Grijalva: As you know, early childhood literacy 
programs are a critical part of Head Start's effort to aid in a child's 
intellectual development. Public libraries across the country are 
effective partners in this effort by providing early learning 
activities that are critical for later language acquisition, learning 
and literacy to infants, toddlers, pre-schoolers and their families.
    As centers of lifelong learning, libraries have a strong tradition 
of serving families with young children, caregivers and educators. 
Across the country public libraries are already partnering with local 
Head Start centers to offer services such as: regularly scheduled 
storytimes; literacy training for Head Start staff; bookmobiles to Head 
Start centers; and programs for parents and caregivers. In many 
communities, librarians also serve as community representatives on 
local Head Start Boards.
    In Mohave County in Arizona, the library provides books to take 
home after the monthly storytime. Head Start staff report that these 
books are often the only books in the home. The librarians chose books 
that are age appropriate and that they believe might be of interest to 
parents for whom English is their second language.
    The Grand Rapids Michigan Public Libraries have had a special 
collaboration with the Kent County Head Start since 1996. Each branch 
librarian holds a storytime for the Head Start center closest to the 
branch library. After each storytime, children are sent home with a 
project to work on that is intended to increase verbal skills, increase 
social skills, and introduce reading skills.
    The Tuolumne County Library in California operates their Worlds of 
Wonder (WOW) bookmobile to reach underserved families, especially those 
with children who are five and under. Three days a week, it travels 
with a Born-to-Read specialist to preschools and Head Start centers to 
encourage the concept of reading to young children and using books as a 
way for families to interact, communicate, and have fun together.
    Since 1994, Oakland Head Start and the Oakland Public Library in 
California have partnered to offer Books for Wider Horizons, which 
recruits, trains, and places volunteer story readers at twenty-two 
Oakland Head Start centers. The literacy program introduces children to 
the joys of reading, increases children's reading readiness, and 
encourages the use of the library by Head Start pre-schoolers and their 
families.
    Targeting a multi-lingual population in Yuba City, California, the 
Sutter County Library's Born-to-Read program involves four health care 
agencies and 11 community organizations including the local Migrant 
Head Start Program. Activities include a major public awareness 
campaign, parenting programs, infant and parent storytimes and Born-to-
Read graduation celebrations at various community sites.
    The Wichita, Kansas Public Library collaborates with Wichita Head 
Start and Early Head Start. The Outreach Librarian reads stories 4 
times a year at each Head Start site (95 storytimes programs in 2006). 
Three Head Start programs benefit from a ``Books to Go'' program, which 
lends a box of books to the site each month for use in the classroom. A 
total of 536 books were checked out to these three sites in 2006. One 
Head Start is located in the same building with a branch library and 
those children join the librarian weekly for storytime.
    These are just a few examples of the special relationships that 
exist between public libraries and Head Start classrooms. By 
recognizing the important role that public libraries play in improving 
literacy and school readiness in the Head Start reauthorization bill, 
libraries across the country can continue to develop new, innovative 
programs to provide young children with the tools they need to succeed 
in school and life.
    Thank you for your continued support and commitment in the role of 
our nation's public libraries in developing a literate, educated, and 
democratic society. Please do not hesitate to contact the American 
Library Association or me should you need any additional assistance as 
the reauthorization process moves forward.
            Sincerely,
                                           Emily Sheketoff,
                  Executive Director, American Library Association.
                                 ______
                                 
    Mr. Grijalva. Thank you.
    I was reading the testimony, I was going over the 
testimony. Ms. Haxton made an interesting point, and I want to 
follow up with some questions on that.
    I think in the testimony it stated--she stated that in in 
coming years there will be major changes in the framework of 
the families' Head Start Programs Service and the cultures from 
which they come. So let me kind of follow up on the theme that 
was established there.
    In the testimony on brain processes that you talked about 
and that your testimony addresses, cognitive or noncognitive, 
how do you--what is your opinion of language acquisition for 
children, cultural, linguistic capacities or competencies for 
staff for Head Start programs? And I mentioned that because 
2005, 2006, the Head Start, Office of Head Start conducted a 
national needs assessment of Head Start and early Head Start 
programs on dual and second language acquisition, and they came 
up with potentially one of the conclusions, a potentially 
negative impact to children by caregivers not understanding and 
supporting dual or second language acquisition. In this 
development of a child and their brain, it strikes me that 
culture, linguistic capacity is part of it and not just--your 
opinion on that.
    Dr. Thompson. Well, Congressman, you are exactly right. One 
of the remarkable things about what we are learning about the 
developing brain is in fact how dependent it is, even in the 
early years. And what the brain development research is telling 
us is very consistent with the behavioral research; namely, 
that children have no difficulty in dual language acquisition. 
But what we know from the behavioral research--the brain 
research has not quite caught up with us--is that the context 
in which dual language aquisition is occurring is absolutely 
crucial, to the extent to which children are able to maintain 
the home language while also learning English, and the extent 
to which teachers are capable of conversing with the child in 
the language they are most comfortable with, but also children 
being able to obtain competence in the language that will be 
required of them when they are reaching an elementary school.
    Mr. Grijalva. Thank you very much. And let me follow up on 
that.
    Mr. McKeever, in your testimony you spoke of raising the 
eligibility level to 130 percent, and I agree with that. The 
more families that we can serve as possible should be the goal. 
I think--I would like to consider that under current law with 
an income eligibility of 100 percent there are approximately 
900,000 eligible unserved children and two-thirds of those are 
projected to be Latino, Hispanic. And I mention that because 
what kind of programs are following that family philosophy and 
theme that you talked about. What kind of outreach programs are 
there to bring in this emerging population that is being not--
not accessing or not being served by the current program?
    Mr. McKeever. In my community, as well as many other 
communities that I am familiar with, for example, we were going 
to Spanish speaking centers and identifying family needs, 
particular families within the community that may go to the 
local Our Lady of Guadeloupe Church.
    We also--one of the influx of population that we received 
from a different culture is Arabic. And one of the things we 
are doing at this time is we are soliciting from the business 
and from the labor community people that can speak Arabic and 
speak in the language that they are. I currently have two staff 
that can speak Arabic, and they can go out and speak to those 
families. They can also work with those families. I don't 
always have a person in the room, but what I try to do usually 
and what our programs try to do is identify someone in the 
family who can speak English or a little bit of English and 
come in to volunteer occasionally.
    We also will go to the home. We will sit in the home with 
the family. We also want to know the total cultural background 
of the family as much as we can in order to determine the best 
needs. For example, with the Spanish Speaking Center, many 
times we cannot determine which family, whether they are at 100 
percent or one of our 10 percent over income or 130 percent, 
actually has the greatest family needs, and I will go to that 
center and I will say, Mr. Gonzalez, tell us what that is. And 
he will say here is what we have got.
    Mr. Grijalva. Appreciate that.
    And with that, Mr. Chairman, I yield back. Thank you.
    Chairman Kildee. Thank you, Mr. Grijalva.
    The Chair now recognizes his former Chair, the gentleman 
from Florida, Mr. Keller.
    Mr. Keller. Well, thank you, Mr. Chairman. I appreciate the 
recognition. I want to thank all of the witnesses for being 
here today. I think Head Start is such a valuable program and 
that it helps 1 million low income children get ready to hit 
the ground running in kindergarten and, most importantly, get 
ready to read.
    The biggest controversy that I have personally dealt with 
during our last authorization of the Head Start bill dealt with 
Parent Policy Councils, and so I will just kind of limit my 
questions to that arena. And let me set up the dilemma some of 
us are wrestling with.
    It is my understanding that under the existing law, the 
Parent Policy Councils sort of share responsibility with the 
Head Start Board in terms of hiring and firing and budget and 
curriculum. And the House bill that I--that passed the House 
with Republicans and Democrat support last year changed that a 
bit and said we are going to put the board as having the final 
say on this issue. And the rationale was that there were 
certain Head Start programs that had some financial 
mismanagement and we need to have some accountability and one 
group that we can look to.
    And I am afraid that the intentions were pure but we kind 
of overshot the mark there because I had 130 different parents 
and Head Start workers come to see me and said look, we kind of 
know what is going on better than anyone. We are here every 
day, and we would like the role of the Parent Policy Council to 
be pretty strong. So I supported an amendment by Mr. Souder to 
fix that problem, and it failed on the floor.
    But now we are going to take a fresh look at that issue, 
and so as we look at it anew, my question to you all, I am 
going to start with Ms. Haxton but I will give you each a 
chance to answer. What role do you think a Parent Policy 
Council should play on things like hiring and the budget and 
curriculum? Should these councils have an equal say to the Head 
Start Board or should they in some way be subservient to that 
board?
    Let us start with you, Ms. Haxton.
    Ms. Haxton. The current model of policy council involvement 
and decision making has worked reasonably well across the 
country for a number of years. The incidences which got 
attention last year in many ways were isolated. However, one of 
the things that is very, very evident to me, and I have done a 
lot of governance training over the years, is that a well-
trained, well-managed policy council does not ever have a 
problem with the hiring process, the financial process. A well-
trained, well-managed policy council will work with management, 
with boards effectively and thoroughly.
    Mr. Keller. So you kind of prefer the existing law with 
what the House tried to do?
    Ms. Haxton. I think the role of the Policy Council is 
critical for a number of reasons, and certainly the bill last 
year captured that idea, the amendment.
    The role that parents play in Head Start affects their 
ability to advocate for their children throughout the years, 
the importance of this rule in Head Start when it is managed 
well by the agency.
    Mr. Keller. Thank you. Mr. McKeever, do you have any 
thoughts on this?
    Mr. McKeever. Yes. I very strongly feel that the existing 
Parent Policy Council regulations are more than adequate. They 
don't make the final decision on curriculum. They don't make 
the final decision on the budget. They don't make the final 
decision on any of these things. They participate and share on 
decision making, and a good program really makes that program 
understand it. If a given individual feels like something is 
being denied by the council, it is because they are not 
informed properly. The council needs to have information in 
order to make informed decision making. I think that is very 
important.
    I do concede in one area of hiring and firing that you have 
a very difficult sensitive issue. You have a legal issue. I 
went through four or five of those situations in the council 
and have been able to deal with it very well. I feel we work 
with our council, train our council, manage our council well. 
But I can see there is definitely an area there that could 
cause concern. And that needs to be the only area that needs to 
be adjusted.
    Mr. Keller. Anyone else? Okay. Ms. Frede.
    Dr. Frede. I am a former Head Start Board member so I was 
on the board, not on the policy council, and I would just 
reiterate what the other panelists have said, that it is all 
about the management. It was a big jump for me to know that 
when I agreed to be on the board that I was suddenly now 
fiscally responsible for decisions that I didn't make entirely 
by myself. But if you agree to serve on a Head Start Board, you 
understand what you are agreeing to and you value the parent 
input and the community input. So I think it is just a matter 
of watching the management making sure that it is well done.
    Ms. Elloie. The whole area of parent involvement was the 
biggest hallmark that Head Start ever had, and I agree with Mr. 
McKeever, many parents were never the ultimate decision maker. 
What Head Start--the model was that Head Start and the board 
had shared decision making. And so when the system worked well, 
when both entities were trained, and they were brought together 
on a periodic basis to explain where that program is going, you 
saw less conflict. And I think the model that we have in place 
now is a good model and it is a good reason for training people 
for community service.
    Chairman Kildee. Thank you. We have to thank you, Mr. 
McKeever, but we have to move on now.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    A lot of the testimony today is pointing to how--what 
behavioral specialists and early childhood specialists have 
known all along is that the investment you make early on has a 
huge impact over time. It is finally getting the attention it 
deserves because now scientists are on board and even 
economists are on board. I had the opportunity, Dr. Thompson, 
to hear Art Rolnik speak on this subject who has made the case 
for the investment being as high as, you know, 11, 12, 13, 14 
percent, on every dollar you invest in early childhood 
education, most of which is a public return as opposed to 
private return. So everyone is getting on board now with what 
many have known for a long time.
    I wanted to just read some testimony from the head of the 
Catholic Charities Head Start program in Baltimore which goes 
to this question of resources and the challenge it produces, 
who said we have already made every kind of cut--this is in 
response to reduced funding that we could make. Because of the 
reduced Federal funding, I could not find any further services 
or staff to cut without reducing the quality of our program, 
which is something I refused to do. So I had no other choice 
but to not renew our contract of two Head Start programs for 
next year. These two programs had been serving 459 children. We 
may be closing the door of opportunity for those children.
    Now what this shines a light on is this tradeoff, and what 
I am curious about, and maybe, Ms. Haxton, you are the one to 
answer the question, is as the funding is not adequate, do you 
think these Head Start directors are making the right choice 
between reducing the offering or diluting the program? I think 
this person probably made the right choice even though it was a 
tough one because he didn't want to dilute the effectiveness of 
the program. And looking at it in another way, the integrity of 
the investment instrument, if you want to get that return, 
you've got to make sure the program quality is preserved.
    But I am concerned that there may be many who, because of 
generosity of heart, don't want to turn away, say, 500 
children. They try to dilute the program and then in fact what 
happens is not only are 500 children being hurt but maybe a 
thousand because they are not getting the investment and the 
quality that they need.
    So can you speak to that conflict or tension and how it 
gets resolved?
    Ms. Haxton. I think we are being put between a rock and a 
hard place. If I am scheduled for a program review this year, 
given the intensity of the current review system, and I have to 
choose between dropping children, if I am given that option, 
and diluting my program, I will drop the children because I 
don't want to be seen as not providing the quality services 
necessary and meeting the standards.
    The difficulty for us is we do, and I have seen Head Start 
directors agonizing over cutting one transportation route, 
saving money, and those children don't get picked up and mom 
can't bring them into the center. So we lose them. It is a 
very, very difficult process chasing small amounts of money 
trying to cover all bases. It has been very difficult, and Head 
Start directors have gone the extra mile a thousand times. Head 
Start staff will take on three different job assignments when 
positions are cut. And they will continue to try and make the 
effort to ensure that this program gets all its services 
provided.
    Mr. McKeever. I am one of those programs that is being 
reviewed this year, and we have had to look at those types of 
cuts. We have had to look at what areas can we look at--best 
at. What areas can we put our best foot forward. To add to it, 
one of the biggest detriments is the 30-day notice requirement. 
At this date today my program still does not know when it is 
going to be reviewed. I am telling staff that asked me for time 
off for vacation or to help move their parents to Florida, and 
that is an actual example, your request is approved contingent 
upon when the Federal review team arrives, and I don't know 
when it is going to arrive. And things like that with the 
monitoring process are just unheard of. It should not be 
happening.
    When it comes to choosing between a bus route and the child 
and making a good review, we should not have to make those 
kinds of decisions.
    Mr. Sarbanes. Thank you.
    Chairman Kildee. The Chair yields 5 minutes to the 
gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I would just like to ask the analysts a kind of general 
question because the Head Start, the learning lessons early and 
one of the lessons to learn is getting along with people, and 
present law prohibits discrimination in employment. And I just 
wondered if anybody thinks it is important that children learn 
the way of the world and learn that people can be discriminated 
against and whether or not you would think it is important that 
some Head Start programs be able to tell prospective employees 
that they are not hired because of their race, religion, or 
national origin.
    Does anybody think that is important for children to learn?
    Ms. Haxton. I am not sure I fully understand the question.
    Mr. Scott. I asked the question is anybody suggesting that 
we change the present law which prohibits discrimination.
    Ms. Haxton. Absolutely not. I would tell you that----
    Mr. Scott. I don't mean to insult anybody, but we have to 
discuss things like that.
    Ms. Haxton. I understand.
    The amendment last year for discrimination on hiring 
individuals whose religion might be the same as the religious 
based program in some ways was both insulting and amazing 
because I would tell you that Head Start programs will hire the 
best people they can find regardless of what their religion is, 
even if it is Catholic Charities running the program. So for 
us, it was not an effort that made a lot of sense.
    Mr. Scott. I appreciate that. We just have to get that for 
the record that no one is suggesting that we change that.
    Mr. McKeever, your program had an anti-violence--in my 
other committee, and I am chairman of the Crime Subcommittee on 
the Judiciary Committee--you had an anti-violence program. Can 
you tell us what difference it made?
    Mr. McKeever. We measure it in terms of what it does to 
that particular family. And because of the high violence in our 
community, it is very important. We have both the curriculum 
that works with children every day is integrated into the 
regular curriculum, and then we also have a curriculum to deal 
with adults and how the problem resolves, how to deal with 
conflict resolution. And we feel it has had an impact. We try 
to look at the impact at a neighborhood level, though. In terms 
of statistics, the data, because of the movement of families, 
it is difficult to tell the long-term data. But much of the 
data that can be looked at in the neighborhood, our families 
become leaders of their block clubs. They become members of the 
school boards and so on. I think we need to reemphasize and 
emphasize more anti-violence curriculums and similar tools to 
work with families.
    Mr. Scott. We need to study that because I have to believe 
that it made a significant difference, but some people need 
convincing so maybe we need some resource that has been 
suggested.
    Mr. McKeever. When we bring a police officer, many of the 
children see it as a negative experience at first. And when he 
sits down and takes his cap off and, you know, sits down on the 
floor with them, the children are amazed sometimes. The man 
really does sit down on the floor without a chair. He doesn't 
have a hat on.
    Mr. Scott. Thank you.
    Dr. Thompson, we treat Head Start as a holistic program, 
and we have had this ongoing debate between Health and Human 
Services and Education. Education would take a narrow 
perspective, Health and Human Services would treat this 
holistically. You mentioned noncognitive skills. Could you 
explain why it is important for Head Start to address those and 
what would be different than just strictly an education 
program?
    Dr. Thompson. Specifically what we are thinking about are 
children who are at greatest risk of academic failures. The 
noncognitive skills are important, in some cases as important 
as the cognitive skills. And the reason is that what holds back 
many children from succeeding in school is a lack of self-
confidence, a lack of motivation, a lot of difficulty in seeing 
what relevance school has to their own future, together with 
often looking at behavioral self-control to benefit from 
learning in a group setting. Children who can't sit in school, 
children who have difficulty paying attention. Children who 
aren't skilled at asking questions if they don't understand.
    When you talk to kindergarten and primary grade teachers 
about the reasons that the children in their classrooms are not 
ready for school, they don't as often talk about children not 
knowing their letters and numbers. What they do talk about are 
those noncognitive skills and they present challenges to these 
teachers because these teaches know how to teach letters and 
numbers, but what do you do with a child who is not curious, 
who doesn't see the relevance of what is happening in the 
classroom to their future.
    Mr. Scott. Is there a particular need for low income 
individuals rather than everybody?
    Dr. Thompson. What the behavioral research shows is that it 
is particularly children in a socioeconomic risk who lag in 
both noncognitive and the cognitive skills. My son is growing 
up in an advantaged environment, had a lot of self-confidence 
going into preschool and grade school. But children coming from 
at-risk backgrounds often have the experiences that undermine 
their self-confidence, their curiosity and their ability to 
simply sit still and be able to do the things in a group 
learning situation that enables them to benefit intellectually. 
So there is good reason that programs oriented towards children 
in at-risk situations focus on the cognitive and noncognitive 
skills because children from these backgrounds are likely to be 
challenged in these areas.
    Chairman Kildee. The Chair recognizes Ms. Woolsey for 5 
minutes.
    Ms. Woolsey. Thank you, Mr. Chairman, and I do apologize. I 
did not hear every witness, but your answers to the questions 
have been very informative.
    But let us go beyond--let us talk about health care. And I 
mean Head Start is so important in so many ways that we could 
talk about any part of it, a young child's life, but let us 
talk about the health care part.
    How important is Head Start to learning when a kid is 
hearing impaired or has sight and vision problems and how do 
you handle it? I mean, you are not supposed to be everything to 
everybody, but as the Katrina example you are--would you 
respond to that in any order? Let us start down here if you 
would like.
    Ms. Elloie. May I respond in a practitioner part of view?
    Two things. It is very important that if we are going to 
work with children and we are successful, we need to know where 
they are. And part of finding out where they are is to do the 
screenings and the assessments so that if a child does not hear 
well or if there is a need for a language development, we know 
it early on. Every single child in Head Start, not just 
children with disabilities, but every single child is supposed 
to have an individualized education plan and an individualized 
health services plan. So we look at the child both cognitively, 
socially, and emotionally.
    And thank you, Dr. Thompson, for bringing that in. That is 
absolutely important for young children.
    And thirdly, we look at them from a health point of view. 
What has been our challenge post-Katrina is the fact that our 
health care system has been almost devastated. Charity 
Hospital, which is the largest provider of health services to--
for families and particularly emergency health care, is still 
closed. And so when we came back to New Orleans, we were faced 
not just with families who had lost health records, we had to 
begin all over again. And so we are still at the point of 
helping families recapture those medical records and begin 
again to get children physically ready to learn. And so it is 
absolutely important that you take into consideration the 
health status of a child before you begin working with them on 
any other domain because an unhealthy child cannot learn.
    Ms. Woolsey. Where in your budget--where did you budget for 
this extra level of reporting that you have to do?
    Ms. Elloie. One of the advantages that we had following 
post-Katrina is that we just allocated more funds for those 
areas that we knew we would need services and we had to make a 
case for it. And we did make a case for it, not only in the 
physical health area but also in mental health services. We 
added to that particular budget because we were faced with 
children and families who were still coping with Katrina. And 
we saw many, many effects of children having gone through the 
trauma of leaving their families, wading through water and all 
of the things that many of us dealt with. We have to deal with 
it in Head Start because we had to make sure that children 
would not go forward with those kinds of behaviors that they 
were beginning to exhibit following Hurricane Katrina.
    Dr. Thompson mentioned earlier about the design he showed 
us about extended--was it violence that you talked about? One 
of the things that we are curious about, and I know that people 
like Dr. Thompson will begin to look at, one of the long 
lasting effects of prolonged and protracted anxiety in little 
children, what will happen to these children 10 months down the 
road or 10 years down the road. So we immediately began working 
with our mental health community and trying to interface and 
intervene at that particular point to see what we could do to 
ease those levels of anxiety and devastation that our children 
and families were beginning to exhibit.
    Ms. Woolsey. What a good example you are.
    Mr. McKeever.
    Mr. McKeever. In our program in terms of not a program 
going through the devastation that Ms. Elloie did, but I can 
understand what she is saying. We transferred from having three 
health assistants to having vision and hearing screening 
through our health screening services. That is an added 
responsibility, but now it is getting overused a little bit 
because they are overloaded.
    We also have the problem of the medical home that is very 
important to health. Health is probably one of our most 
critical needs. Health and mental health. And mental health is 
most important. Just as important. We try to help the family 
find a physician, dentist, a hospital. Many of them never had a 
family doctor like we have. Many of them never had a dentist. 
We look at that situation, and one of the barriers we face is 
the majority of physicians and dentists do not want to accept 
Medicaid. They do not want to accept public assistance. I don't 
ask for you to mandate it, but I would ask you consider it, 
encourage strongly individuals in the health field to 
reconsider serving children that have needs and they happen to 
have Medicaid or some assistance as a form of payment.
    Chairman Kildee. A brief comment.
    Dr. Thompson. Just one brief rejoinder and this again comes 
from the developmental science. The issue of young children's 
emotional needs and their mental health needs is, I think, the 
third revolution that is going to be taking place in our 
understanding of early childhood. The first was the knowledge 
of brain development. The second was focusing on school 
readiness. I think that the next discovery about the importance 
of early childhood is going to be the fact that young 
children's lives are both rich and deep, but also vulnerable, 
and we often find the origins in early childhood experiences of 
what can be enduring, problems with depression and anxiety. We 
see in young children post-traumatic stress whereas 10 years 
ago we never thought we would see that.
    I think we see this on the vanguard in catastrophes like 
Katrina. But we see mental health problems increasingly common 
in children growing up in stressful environments. We know from 
the brain research how damaging chronic stress can be to the 
physiology of the brain. I think we are going to look at early 
childhood differently as a result of what we are learning about 
their risk for serious mental health problems.
    Chairman Kildee. Thank you. Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    I would like to ask a couple of questions of Ms. Haxton, 
and I would like to have a dialogue with Dr. Frede.
    Ms. Haxton, one of the new challenges for local programs 
that you identified in your testimony was meeting the needs 
with changing communities. And we see that happening 
particularly in the central United States and then all the way 
out to the Northeast. Have you seen a growth in the Latino 
population?
    Ms. Haxton. In Ohio particularly, yes, and there clearly 
has been a growth of Latino population through the Northwest 
that is growing unprecedented.
    Mr. Hinojosa. In that population that you identify in Ohio, 
do you see the limited English proficient students that come 
with that Latino community?
    Ms. Haxton. To the extent that families come into Ohio and 
settle out, yes. What I have seen in relation to that is an 
increased need on the part of all grantees to have bilingual 
staff, and that is not easy in a State like Ohio. And so high 
school Spanish has been expanded enormously so that staff can 
be on in granting agencies available to work.
    Mr. Hinojosa. So what does your association offer in terms 
of support or environmental assistance for your local programs 
to address this?
    Ms. Haxton. Our association provides an enormous amount of 
training. We provide a considerable amount of focus on the 
changing needs of the Head Start community, how the whole Head 
Start culture is changing. What we need to do as an 
organization to meet those changes, not the least of which is 
to change in the local community, what families need 
differently now than they did 40 years ago. 40 years ago the 
part-day Head Start Program was all families needed. It was a 
wonderful opportunity. Programs were organized around the 
notion of providing a morning session and an afternoon session. 
Now in some cities we can't find children for just a part-day 
session. We need full-day, full-year care for children who are 
experiencing Head Start.
    So organizations, agencies providing Head Start services 
need to be looking at this very big picture of how the 
community is changing, how cultures are changing and what we 
need to do to meet that.
    Mr. Hinojosa. Ohio invests a great deal of money in 
education. I visited your State. And would you all consider 
maybe a demonstration project where we could bring trained 
teachers from Spanish speaking countries to spend 3 months, 
maybe 6 months, training the trainers so that you could 
possibly expedite this environmental assistance?
    Ms. Haxton. Sounds like a wonderful idea, and I would love 
to talk about it further.
    Mr. Hinojosa. Dr. Frede, I enjoyed listening to your 
presentation, and it stimulated my mind because I have been one 
of those strong supporters of raising the level of education of 
our teachers for the Head Start Program back since the 
reauthorization of 1998 where we said half of our teachers will 
get an associate degree and then by the next reauthorization we 
require that all of them get that. You are talking beyond that. 
You are talking about bachelor's degrees, and I think that is 
exciting.
    The question that I ask you is how will you deal with the 
cost of the--to the men or women because in most cases they are 
adults, so that they can have that accessibility and 
affordability to get trained with a bachelor's degree.
    Dr. Frede. It is a difficult financial issue both for the 
individual trying to get the bachelor's degree and also for the 
program to then pay for them once they have received it because 
I am not advocating hiring people with bachelor's degrees who 
aren't getting paid appropriate salaries. I don't think you 
will get the quality of teacher that the Head Start children 
deserve.
    I, again, am going to turn to my experience in New Jersey, 
although I think other States have come up with good solutions 
as well. It is a solution that costs money and that is that the 
State of New Jersey, in order to ramp up the Abbott program, 
Abbott preschool program, funded scholarships to teachers to go 
to school. They also funded the release times so that teachers 
could be away to take classes. And in a----
    Mr. Hinojosa. I would like to interrupt you because time is 
running out. And I would like to get in writing anything that 
you have that has been already put into practice the last 
question that you said was important to you personally was 
research funds. I would like to see if you could meet with one 
of my staff assistants, that we can talk about that because in 
the reauthorization, I would like to look at the possibility of 
putting something into reauthorization that will address this 
concern that you have. And I want to say that I am a very 
strong believer of what research could do to help us improve 
our Head Start and our Early Start programs.
    I yield back, Mr. Chairman.
    Chairman Kildee. The Chair now recognizes the gentleman 
from New Jersey, Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman. And I 
apologize for a conflict and was unable to hear the testimony 
although I am aware of what each of you talked about.
    I just have one brief statement about the position, status 
actually of policy councils and Head Start programs. There was 
seemingly a move to perhaps diminish the role of policy 
councils, which, as we know, are made up of parents of the 
children and in many instances the parents have, you know, we 
have got tremendous success stories of people coming from 
public assistance to, you know, completing high school and 
going to college and getting a law degree and things of that 
nature.
    And so I--we had a concern, I think, in the last couple of 
years that there may be restrictions or there may be ways of 
trying to minimize the Parents Council from their strong 
participation in Head Start. We have a very strong Head Start 
program in New Jersey. I am sure that the record the 
representative is aware of. And Dr. Frede. And so we do want to 
make sure, and I just wondered if any one has any brief comment 
on the Policy Council that the way the parents are involved in 
is almost as important a part of the program as really serving 
the children.
    Yes.
    Mr. McKeever. The empowerment that we give parents through 
decision making on the Policy Council, because the essential 
part of the emotional development of their child and 
themselves, the confidence they develop takes on amazing, 
amazing life. I have many parents that have returned as school 
board members, county commissioners, so on and so forth. They 
are not the sole decision makers I mentioned earlier. Many 
times when you look at things like the budget, I hear from some 
individuals that the budget is a difficult thing for parents to 
look at. It is not--good programs--many of our good programs 
will train very heavily in the area of the budget. I spend a 
day in the budget, I spend 7 days reviewing line item by line 
item and during the last 4 years, with the freezes and the 
cuts, that has been difficult but we compare that and the 
parents are amazing. What those parents, that Policy Council 
looks at their own checkbook, and that is one of the things we 
do. We say you got to pay the utilities first, right? We have 
got the pay our utilities first. You have to employ the people 
to make the program operate. You have to pay for the insurance 
here.
    Mr. Congressman, I myself in 1979 was a member of the 
Policy Council. I was a community representative. I was not a 
parent. I was asked to apply for a job. I applied. I was going 
to stay 2 years, and after watching those parents and even the 
ones--it is a tough job. It is not easy because some of those 
parents want to be argumentative. But through their arguments, 
they also learn concession. They learn how to resolve problems, 
not just argue those problems.
    An excellent, excellent area. Please do not destroy the 
Parent Policy Council. Like I say, in the areas of hiring and 
firing, you may have some modification. But leave everything 
else alone and it should just be a modification, not denial, 
not a total withdrawal from it.
    Mr. Payne. Thank you. I couldn't concur more. I, too, was a 
member of the board, and just made it, too, way back in the 
early part of my career. So as a matter of fact, someone was 
bragging about they almost beat the Congressman in the 
preschool.
    But let me just ask this final question as my time is about 
to expire to Dr. Thompson.
    We are starting to hear more about from 0 to 3 and how 
important that part of a child's development happens to be, and 
I know that you are going to testify on child development from 
birth through 3. I wonder, are there many programs or any that 
are preschool and whether--I know we do have some infant 
programs and so forth, but what is the status of that category?
    Dr. Thompson. When we talk about early childhood education, 
you are exactly right that we are thinking about earlier and 
earlier, recognizing that the ways in which we do effective 
education when we are thinking about infants and toddlers and 
very young children is different from how we do it with older 
children. That is one of the reasons I think Early Head Start 
is a well-conceived program. In a sense it puts together 
varieties of developmentally appropriate experiences for the 
children but also empowers families to be able to provide these 
kinds of opportunities for children, as well as helping 
families move towards greater self-certainty.
    The evaluation studies that have been done, including 
congressionally mandated randomized control studies, show that 
children involvement in Early Head Start not only contributed 
to cognitive and linguistic gains in these children but also 
had significant outcomes for the enhanced support that parents 
were able to provide their own offspring as well as helping to 
move families towards self-sufficiency.
    I think one of the rules that research has shown us about 
very early childhood intervention is that an exclusive child 
focus is not going to accomplish nearly as much as a focus of 
developing the child within the context of the family that has 
to be both assisted, empowered, and equipped to provide the 
essential components of early childhood experiences that only 
family members can provide as well.
    Chairman Kildee. Thank you very much.
    Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman. My apologies.
    Dr. Thompson, I got to hear your testimony and then I had 
to leave. I want to let you all know first and foremost that 
not only do I oppose any reductions in funding for Head Start, 
I support full funding. I talked about this for weeks and 
weeks. I have had the opportunity to work for a Member of 
Congress for 23-1/2 years prior to doing this. So I know what 
Head Start can and does do, and I want you all to know that I 
support full funding.
    I have a really--since I missed your testimony, I guess I 
have a two-part question for anybody on the panel or for all of 
you.
    My concern regarding Head Start is focused in rural 
communities. In my congressional district, we have a lot--
primarily made up of the rural communities. In your opinion, 
how can Congress and the reauthorization provide access to Head 
Start services in the rural communities or improve the 
assistance in the early education, health care, language 
education programs and family involvement?
    And then the second part to that would be what challenges 
do you see providers facing in the rural communities with 
regard to that kind of assistance?
    Ms. Haxton. I can speak to that.
    We have a unique demographic. We have eight major cities 
and also 38 counties in Ohio that are considered Appalachian 
rural. Rural communities need different kinds of service 
providers. We have rural communities in Ohio that do not have a 
single child care provider in the county. They are not needed. 
Grandma and Aunt Lil and others take care of the children when 
they are not in the Head Start Center. What they do need are 
more buses, shorter bus routes, more locations that can access 
families who live way out or the option to provide a modified 
home based kind of program, flexibility rural programs need--I 
think should be more clearly as we devise plans for the future.
    There are specific needs with specific cultures rurally. 
Families don't see themselves necessarily as poor. So 
recruitment is often more challenging. Imagine, if you will, 
having a bus route, for example, of nearly an hour and of 
course the regulations say we can't keep children on buses any 
longer than that, and how do we collect those children and get 
them back to the center? It is a major challenge for programs 
in rural areas.
    Recruiting families is a major challenge for families in 
rural areas and yet we know they are there. It is much more 
costly when we get to those geographic areas in finding 
families and keeping families in the roster.
    Mr. Hare. Dr. Thompson, I apologize for missing part of the 
testimony. Can you discuss the--you talked about stress, why 
early stress impedes learning and what some of those stresses 
are.
    Dr. Thompson. One of the most jarring recent discoveries 
from developmental neuroscience has to do with what seems to be 
some of the effects of chronic, enduring and uncontrollable 
stress on brain development. And the best way of understanding 
this is to understand that when the brain is responding to the 
perception of a stressful event, it begins to secrete stress 
hormones into the body, cortisol being one of the best known of 
these, that help to arouse and activate the body. But in a 
sense, the body is like a super-charged engine. It can go on 
overdrive, but it is not designed to be on overdrive for a 
sustained period of time and what we now know that the 
persistent chronic secretion of stress hormones on an enduring 
basis has toxic effects on the developing brain. We see this 
most clearly in animal studies but we are beginning to see 
evidence creeping up in studies of human brain development.
    This, again, coincides with what we have long known from 
behavioral studies that show that young children in chronically 
stressful circumstances often show long-term behavioral 
consequences that far extend beyond the persistence of the 
stressful event itself and can also be manifested in the kind 
of lack of behavioral self-control, lack of emotional self-
control, difficulties concentrating, difficulties focusing 
attention, which have obvious implications for young children's 
ability to learn.
    So what kinds of stresses are we talking about? We have 
been hearing about them with respect to children that were 
victimized by the tragedy of Hurricane Katrina, which I think 
illustrates in kind of a glaring fashion exactly the extremity 
of the stresses that young children can be subject to.
    But we also know that these kinds of chronic stresses can 
be experienced when children are in situations that are 
abusive, that are regularly neglectful, when children are 
growing up in dangerous neighborhoods where their safety is 
genuinely at risk or when they are growing up in troubled 
family environments where parents themselves are experiencing 
stress owing to marital or substance abuse or economic 
problems.
    We are working hard to establish what is the extent of the 
stresses that we can consider to be toxic, recognizing that not 
all stressful events have these effects indeed, and manageable 
levels with the kind of support that close nurtured 
relationships can provide, stress can be actually beneficial 
for the developing brain. In a sense it tones the 
neurobiological stress system so it can react appropriately.
    But there is evidence now when children are overwhelmed, 
when they are in chronic stressful situations and when they 
lack assistance of supportive relationships, they actually 
become hyper responsive to stress in such a way that they are, 
if you will excuse the expression, freaked out by experiences 
that ordinarily people would not be responding to.
    Mr. Hare. Thank you, Doctor.
    Chairman Kildee. Thank you very much.
    I thank the panel. This has been a very, very informed 
panel which has given us some really good information. You have 
addressed some very specific issues and some very general 
issues in depth. You have responded to some of the disputes we 
had last year during the reauthorization. I feel personally 
grateful that for the first time in 12 years I am chairing a 
panel again that I have such a great panel before us. And I 
want to thank you very, very much. You have been very, very 
helpful, more than I think you will ever realize.
    As previously ordered, Members will have 7 calendar days to 
submit additional materials for the hearing record. And any 
member who wishes to submit follow-up questions in writing to 
the witnesses should coordinate with the majority staff within 
the requisite time.
    And without objection and with great thanks, this hearing 
is adjourned.
    [The prepared statement of the National Migrant and 
Seasonal Head Start Association follows:]

Prepared Statement of Yvette Sanchez, Executive Director, the National 
              Migrant and Seasonal Head Start Association

    Thank you Chairman Kildee, Ranking Member Castle and honorable 
members of the Early Childhood and Secondary Education Subcommittee for 
the opportunity to submit testimony and contribute to this hearing on 
Head Start as you begin the reauthorization process.
    It is critical that an open discussion take place regarding the 
changes that are being proposed for Head Start Reauthorization and that 
particular attention be paid to some of our nation's most vulnerable 
children. I submit this testimony on behalf of the 28 Migrant and 
Seasonal Head Start programs that are members of the National Migrant 
and Seasonal Head Start Association and the parents and children they 
serve.
    Our message to you regarding reauthorization of Head Start is 
threefold. First, we urge you to consider the unique nature of Migrant 
and Seasonal Head Start programs and ensure that the federal branch 
office is preserved and strengthened. Secondly, as you authorize new 
program and teacher requirements we urge you recognize and consider the 
challenges faced by Migrant and Seasonal Head Start due to the rural 
and seasonal nature of our programs, the mobility of the families we 
serve, and the large number of infants and toddlers served. And 
thirdly, we urge you to ensure that the legislation devotes additional 
resources to Migrant and Seasonal Head Start in order to address the 
documented funding shortfall that prevents more than 80% of the 
eligible children from receiving services through our programs.
Background on Migrant and Seasonal Head Start
    Migrant and seasonal farmworkers work in various sectors of our 
nation's agriculture industry--from harvesting to sorting to processing 
to everything in between. It is hard work and it takes special skills. 
Most families earn less than $10,000/year (Department of Labor Report 
to Congress, December 2000) and do not have health benefits.
    Migrant and Seasonal Head Start (MSHS) programs serve nearly 37,000 
migrant children and nearly 2,500 seasonal children annually, operating 
in 40 states in every region of the country. Migrant and Seasonal Head 
Start programs were the first Head Start programs to serve infants and 
toddlers. Today, two-thirds of the children in the program are infants 
and toddlers.
    Migrant and Seasonal Head Start was a response to the needs of 
farmworker families. In most states, local childcare resources are not 
available when migrants come into a community, especially for infants 
and toddlers. When resources are not available, parents have no choice 
but to take their children to the fields where they are exposed to 
pesticides, hazardous equipment, extreme heat and other health dangers.
Migrant and Seasonal Head Start is Successful
    In serving a unique population, the children served in MSHS leave 
our programs with literacy skills in both English and Spanish. Programs 
work closely with the parents of each child so that they are better 
able to support their children's educational goals. MSHS not only 
prepares parents to support their children in being successful in 
school, but also provides educational and job-training opportunities 
for parents as well. As parent Asuncion Garay Diaz comments, ``Every 
day the kids show us how well they are being trained for the future, 
how they are being taught to read and how to be safe and respectful. 
They are being prepared for when they go to public school and that's 
where our children really show the difference because they are so much 
better prepared for that.''
Migrant and Seasonal Head Start is Unique
    Migrant and Seasonal Head Start is very different from other 
programs. Because of the nature of farm labor, children need full day 
services--often from 6 a.m. to 6 p.m. and often 6 days a week. In many 
states, Migrant and Seasonal Head Start programs operate from May to 
October, rather than the typical school year schedule, and of course, 
many of the families and children are on the move for much of the year 
and need services at different times, in different states and 
locations.
    Migrant and Seasonal Head Start is an important resource for 
families. It is also an important asset for the agricultural industry. 
Like all American families, farmworker families continue to work hard 
for one primary reason: to give their children a better life. However, 
while farmworkers work nearly round the clock during peak harvest 
seasons, many times they do not have a clean, safe place for their 
children so that children are often left in the care of older siblings, 
or worse, are taken to the fields. This is a situation that neither 
farmworkers nor growers want--having children in the fields is not safe 
and hinders work productivity. Migrant and Seasonal Head Start provides 
services for children of farmworkers, keeping them out of the fields 
and harm's way.
Funding is Needed
    The National Migrant and Seasonal Head Start Association (NMSHSA) 
is an association of Migrant and Seasonal Head Start Directors, staff, 
parents, and friends that meet regularly to discuss issues and concerns 
unique to Migrant and Seasonal Head Start children and their families. 
The NMSHSA and its membership are committed to excellence in early 
childhood education for all children with a particular focus on 
addressing the unique barriers that farmworker families face in 
accessing the highest quality education programs for their children.
    In order to ensure that the quality of the Head Start Program is 
preserved and that children of migrant and seasonal farmworker families 
can access Head Start services at the same rate as other Head Start 
eligible children, the NMSHSA endorses the following principals related 
to Head Start reauthorization:
    1. The Federal Programs Branch for Migrant and Seasonal Head Start 
(MSHS) must be maintained to ensure that the unique nature of MSHS 
Programs and the families and children served are properly and 
adequately addressed.
    2. Until the underlying Head Start statute is amended to guarantee 
that no less than 5% of the annual Head Start appropriation be directed 
to MSHS Programs, the NMSHSA is reluctant to support authorizing new 
program authority that would draw funds from the already overextended 
annual Head Start appropriation.
    3. The NMSHSA believes that parent involvement is crucial to the 
success of Head Start and supports maintaining the current governance 
structure which ensures parent involvement in policy formation and 
decision making.
    4. The NMSHSA supports accountability and the re-competition of 
Head Start grantees that have been determined to have unresolved 
deficiencies.
    5. Pending a review by the National Academy of Sciences, the NMSHSA 
believes the National Reporting System (NRS) test should be suspended.
    The NMSHSA recommends that the following changes be made to the 
Head Start statute in order to strengthen the MSHS Program and ensure 
that a greater number of migrant and seasonal children can access 
quality MSHS programs.
    1. Include language in the statute to guarantee that no less than 5 
percent of the annual Head Start appropriation is set aside for Migrant 
and Seasonal Head Start programs. According to a 2001 Head Start Study, 
(Descriptive Study of Seasonal Farmworker Families--September 2001) 
which was requested as part of the 1998 Head Start Reauthorization 
bill, only 19% of eligible migrant and seasonal children are served 
through existing MSHS Programs. By comparison, Regional Head Start 
programs serve approximately 60% of their eligible population. Since 
the HHS study was released in 2001, funding for MSHS as a percentage of 
the overall Head Start appropriation has not increased. In fact, at no 
point in the last ten years has MSHS secured more than 4% of the annual 
Head Start appropriation.
    2. Include a provision requiring the Secretary to work with the 
Migrant and Seasonal Head Start community to develop a system to 
adequately account for the number of seasonal and migrant children that 
are eligible for Head Start, determine how many of these children 
receive services, and identify the barriers that prevent eligible 
children from accessing services. In addition, the Secretary must be 
called upon to develop a system through which MSHS programs can 
effectively work with children and their families to track health 
records and educational documents as a child moves from state to state. 
The Department of Health and Human Services currently has no systems in 
place to assess the demand for MSHS services or to effectively track 
the medical and educational records of a child. Other than the 2001 
study referenced above, the Department has not collected data on the 
demand and availability of Head Start services for migrant and seasonal 
families. We recommend that language be included in the 2007 Head Start 
reauthorization bill requiring the Secretary of HHS to work with MSHS 
providers as well consult with the Department of Agriculture (land 
grant universities), the Department of Labor, the Bureau of Migrant 
Health, and the Department of Education about putting systems in place 
for collecting and reporting data on farmworkers and their families.
    3. Any new teacher qualification requirements added to the statute 
must take into account the challenges that MSHS programs face in 
securing and retaining teachers with degrees due to the seasonal and 
rural nature of the programs, large numbers of infant and toddler 
teachers needed, necessity for bilingual/culturally competent staff, 
and the limited access to quality coursework offered by institutions of 
higher education. Therefore, any new bill that requires teachers or 
aides to secure college degrees must also provide a renewable waiver 
for Head Start programs, like MSHS, that can document efforts to meet 
all compliance requirements and identify the barriers faced in doing 
so. In order to secure a waiver, a program should also be required to 
provide a plan and a timeline for moving into compliance.
    As the current Administration has committed itself to leave no 
child behind, we are also asking that funding be made available to 
ensure that commitment. Based on a 2001 Head Start Study, (Descriptive 
Study of Seasonal Farmworker Families--September 2001) only 19% of the 
eligible migrant and seasonal children in our country were being 
served. This compares to a 60% national rate of participation. The 
families who put food on the tables of America and their children are 
one of the most vulnerable populations in the country. We are committed 
to providing these children and families a strong foundation for 
learning. To do so, funding must be made available beyond the current 
levels to ensure services for these children.
    As the Executive Director of the National Migrant and Seasonal Head 
Start Association I would be happy to provide additional information to 
the Subcommittee on the MSHS programs and the families we serve.
                                 ______
                                 
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
